<html>
<title> - THE NATIONAL PARKS: WILL THEY SURVIVE FOR FUTURE GENERATIONS?</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]





     THE NATIONAL PARKS: WILL THEY SURVIVE FOR FUTURE GENERATIONS?

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 14, 2005

                               __________

                           Serial No. 109-55

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
23-039                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
GINNY BROWN-WAITE, Florida           C.A. DUTCH RUPPERSBERGER, Maryland
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
KENNY MARCHANT, Texas                ELEANOR HOLMES NORTON, District of 
LYNN A. WESTMORELAND, Georgia            Columbia
PATRICK T. McHENRY, North Carolina               ------
CHARLES W. DENT, Pennsylvania        BERNARD SANDERS, Vermont 
VIRGINIA FOXX, North Carolina            (Independent)
------ ------

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
               Rob Borden, Parliamentarian/Senior Counsel
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
PATRICK T. McHenry, North Carolina   ELIJAH E. CUMMINGS, Maryland
DAN BURTON, Indiana                  BERNARD SANDERS, Vermont
JOHN L. MICA, Florida                DANNY K. DAVIS, Illinois
GIL GUTKNECHT, Minnesota             DIANE E. WATSON, California
STEVEN C. LaTOURETTE, Ohio           LINDA T. SANCHEZ, California
CHRIS CANNON, Utah                   C.A. DUTCH RUPPERSBERGER, Maryland
CANDICE S. MILLER, Michigan          MAJOR R. OWENS, New York
GINNY BROWN-WAITE, Florida           ELEANOR HOLMES NORTON, District of 
VIRGINIA FOXX, North Carolina            Columbia

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
            J. Marc Wheat, Staff Director and Chief Counsel
               Mark Pfundstein, Professional Staff Member
                           Malia Holst, Clerk


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 14, 2005...................................     1
Statement of:
    McIntosh, Robert W., Associate Regional Director, Planning 
      and Partnerships, Northeast Region, National Park Service..     9
    Thornburgh, Richard, president, the Gettysburg National 
      Battlefield Museum Foundation; David Booz, Friends of the 
      National Parks at Gettysburg; Joy Oakes, director, National 
      Parks Conservation Association; and James Lighthizer, Civil 
      War Preservation Trust.....................................    34
        Booz, David..............................................    44
        Lighthizer, James........................................    74
        Oakes, Joy...............................................    53
        Thornburgh, Richard......................................    34
Letters, statements, etc., submitted for the record by:
    Booz, David, Friends of the National Parks at Gettysburg, 
      prepared statement of......................................    47
    Lighthizer, James, Civil War Preservation Trust, prepared 
      statement of...............................................    77
    McIntosh, Robert W., Associate Regional Director, Planning 
      and Partnerships, Northeast Region, National Park Service, 
      prepared statement of......................................    14
    Oakes, Joy, director, National Parks Conservation 
      Association, prepared statement of.........................    56
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     5
    Thornburgh, Richard, president, the Gettysburg National 
      Battlefield Museum Foundation, prepared statement of.......    37

 
     THE NATIONAL PARKS: WILL THEY SURVIVE FOR FUTURE GENERATIONS?

                              ----------                              


                         MONDAY, MARCH 14, 2005

                  House of Representatives,
 Subcommittee on Criminal Justice, Drug Policy and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Gettysburg, PA.
    The subcommittee met, pursuant to notice, at 9:11 a.m., in 
room 260 of the College Union Building at Gettysburg College, 
Hon. Mark Souder (chairman of the subcommittee) presiding.
    Members present: Representative Platts.
    Staff present: Mark Pfundstein, professional staff member; 
and Malia Holst, clerk.
    Mr. Souder. Subcommittee will now come to order. Good 
morning, and thank you all for joining us. This hearing is the 
first in a series of hearings about budget and management 
issues facing the National Park Service given budget 
shortfalls.
    The Committee on Government Reform is the oversight 
committee of the U.S. House of Representatives. As such, it is 
the mandate and the duty of the Government Reform Committee to 
scrutinize the workings of the U.S. Government. House Rule X, 
clause 4(c)(2) states that the Government Reform Committee may 
``at any time conduct investigations of any matter without 
regard to committee jurisdiction.'' The Subcommittee on 
Criminal Justice, Drug Policy, and Human Resources has 
oversight jurisdiction over issues outlined in its name, as 
well as a large swath of the Federal Government not explicitly 
named in its name, including the National Park Service.
    The mission of the National Park Service is to ``promote 
and regulate the use of the national parks, which purpose to 
conserve the scenery and the natural and historic objects and 
the wildlife therein and to provide for the enjoyment of the 
same in such manner and by such means as will leave them 
unimpaired for the enjoyment of future generations.''
    In its nearly 90-year history--by the way, our 
subcommittee--our full Committee on Government Reform, is 100 
years old. In its 90-year history the National Park Service has 
grown substantially from 36 units in 1916 to 388 units today. 
There are 57 units called national parks, the so-called crown 
jewels of the National Park Service. Other commonly used titles 
include the national historic sites, 77; national monuments, 
which are 74; national historical parks, which are 41; national 
memorials, of which there are 29; national recreation areas, 
which there are 18; and national preserves, of which there are 
18. Each unit is distinctive, and each unit has its own unique 
problems and challenges. Moreover, as the National Park Service 
has grown, the demands on its resources have also grown. This 
is the first of a series of hearings examining each type of 
Park Service unit, or at least most of the types, and various 
aspects of park operations as they relate to the National Park 
Service's mission.
    The National Park Service is one of the most recognized and 
appreciated government agencies. Each year millions of people 
visit the 388 units of the National Park Service. They expect 
to see the friendly faces of park rangers dressed in their 
familiar green uniforms greeting them at the gate and assisting 
them throughout the park.
    I began my visits to the National Park when I was very 
young and in my lifetime have visited parks all over the 
country, from Alaska to Florida to Hawaii and everywhere in 
between. I have no National Park Service units in my district, 
but I fight for better National Park Service every chance I 
get.
    As a member of the House committee--as a former member 
because I took leave this year to go back to Education for 2 
years--as a former member of the House Committee on Resources, 
I have been able to focus a great deal of attention on the 
National Park Service. Under the capable leadership of 
Resources Committee Chairman Richard Pombo of California, the 
problems facing National Park Service have been brought to the 
attention of the House of Representatives. I hope the fresh 
perspective of my hearing bring to this issue will build on 
whatever the committee has accomplished and result in a better 
National Park Service.
    We will continue to work with the Resources Committee, 
because anything that comes out of our hearing would have to go 
through Chairman Nunes' subcommittee and then the full 
Committee on Resources. These are oversight hearings to 
generally look at the problem in a systematic way.
    Each and every park is different. Each and every park I 
have visited tells a different part of the story of America. 
Although there are vast differences from park to park, the 
desire to preserve and protect our natural, cultural, and 
historic heritage remains constant.
    The preservation of our natural, cultural, and historical 
heritage is of the utmost importance so that future generations 
will know the history of their country and be able to enjoy the 
natural grandeur of God's creation. As the Park Service budget 
has come under greater pressure, the parks have suffered. If 
these pressures continue to grow, I believe that the National 
Park Service's ability to adequately achieve their stated 
mission may be in doubt.
    In the recent past President George W. Bush has devoted 
more money toward alleviating the maintenance backlog. Congress 
has boosted National Park Service funding, particularly in the 
last fiscal year. We have done a letter--Congressman Lewis and 
myself and many others have supported additional funding, and 
we have been able to increase that funding at a time when all 
the government funding has been relatively flat.
    But while this interest in the Park Service is deeply 
appreciated, ongoing and constant attention must be paid to 
this problem. This series of hearings will examine the National 
Park Service's fulfillment of its mission. Over the course of 
the 109th Congress this subcommittee will conduct a series of 
hearings--both in Washington, DC, and around the Nation, that 
examine the state of the national parks, the fulfillment of 
their mission, and the reasons behind it.
    Our plan is to study all kinds of parks in all the regions 
of the country. The hearing at Gettysburg National Military 
Park will focus on historical parks, particularly Civil War-
related units, and parks in this region. We will also look at 
public-private partnerships.
    We have a variety of witnesses here today, including a 
representative of the National Park Service. Also present are 
the Honorable Richard Thornburgh, former Governor of 
Pennsylvania, now of the Gettysburg Museum Foundation; David 
Booz of the Friends of the National Parks at Gettysburg; Joy 
Oakes of the National Parks Conservation Association; and a Mr. 
James Lighthizer of the Civil War Preservation Trust.
    Joining me today on the dais is Congressman Todd Platts, in 
whose congressional district we currently sit. He is also a 
member of the Government Reform Committee and also a great 
friend of the National Parks. We appreciate his interest in 
this topic and his presence here today. We also want to thank 
Gettysburg College for being our wonderful host and allowing us 
to do this.
    For those of you who aren't familiar--I mentioned the 
Government Reform Committee does oversight on a wide variety of 
topics. Our subcommittee spends about 50 percent of its time on 
narcotics issues, although we do a wide range, our committee, 
since the time I have been in Congress since 1994, has done a 
wide variety of oversight hearings including the first Travel 
Office allegations in the last administration in that and the 
FBI files and tribal gaming questions, which many people in the 
Interior are familiar with as well on those issues, issues 
related to--probably the most prominent that you may have heard 
of the last few days is Thursday we subpoenaed seven Major 
League baseball players for a steroid hearing. Those are the 
things that our committee does.
    It is unusual because we also have subpoena power, as Major 
League Baseball is learning. We also have the ability to 
prosecute witnesses for perjury, which we have done. And we 
have the ability to ask for all emails and phone records, which 
is why our committee is substantially different, as you will 
see today. Each witness is sworn in, unlike what happens in 
most committees because Congress has devised to have an 
Authorizing Committee, of which resources and the park is to 
set the laws and the guidelines for how we function.
    Then you have an Appropriations Committee, which is to 
implement and fund those. And then the executive branch takes 
what Congress has passed and funded to implement the programs. 
The oversight committee then says, is this being done the way 
Congress intended it to do? Is it adequate for what Congress 
intended it to do? And then reports back to the Authorizing and 
the Appropriating Committee to start the process again.
    Hence why we have the right, for example, in the case of 
Major League Baseball, their whole financial structure and 
whole leagues are based on the Anti-Trust Exemption of 
Congress. So theoretically, if they aren't implementing steroid 
policy and their whole TV advertising, radio advertising, 
financial structure, ability to get public stadium financing is 
based on the will of Congress, we would actually have the right 
to write legislation demanding an independent, outside steroid 
testing.
    But those things will be discovered through our committee; 
then, it would go back through the legislative process, and 
another committee will implement it if those would be the 
conclusions from our hearing this week.
    Well, in the Park Service a similar-type thing is we go 
through, look at what we see around the county in the Park 
Service, any proposals, then we go over to the Resources 
Committee, then to be funded by the Appropriations. Although in 
many of these cases--or least some may be able to be 
accomplished through the administration. So that kind of is the 
overview of what we are doing with these hearings and why we 
are here today.
    I now would like to recognize Congressman Todd Platts for 
an opening statement. He is also a chairman of a subcommittee 
of the Government Reform Committee on Government Management, 
Finance, and Accountability. And just last week we moved one of 
his bills to his credit, something he has been working on for 
some time. I would like to yield to my friend and colleague, 
Mr. Platts.
    [The prepared statement of Hon. Mark E. Souder follows:]

    [GRAPHIC] [TIFF OMITTED] T3039.001
    
    [GRAPHIC] [TIFF OMITTED] T3039.002
    
    [GRAPHIC] [TIFF OMITTED] T3039.003
    
    Mr. Platts. Thank you, Mr. Chairman. I want to first just 
thank you for beginning your series of hearings on the 
importance of investing in our National Park Service here at 
Gettysburg. We certainly are proud to have you here at this 
historic site and also appreciate Gettysburg College hosting 
this hearing.
    I want to affirm my support for the National Park Service 
and their critically important mission and your efforts in 
trying to raise awareness of the needs of the Service and 
meeting that mission. I say that professionally, but I also say 
it personally. My wife and children and I have enjoyed the 
national parks for many years and regularly each summer get out 
to at least one or more parks for some tent camping, although 
my wife seems to be--maybe she is ready for something other 
than a tent out there.
    But we have enjoyed the parks, and I think the mission 
today is to help raise awareness of the needs of the Park 
Service so that future generations can also enjoy the parks, as 
we have, and past generations. So I appreciate your efforts and 
look forward to working with you on the needs of the Park 
Service.
    I do want to say up front that we are delighted to have all 
the witnesses and look forward to the testimony. I want to say 
I am especially honored to be here with Governor Thornburgh 
presenting. My first official job out of college was as an 
information writer for the Governor in 1984 and honored to be 
in his presence once again. So, Governor Thornburgh, great to 
have you.
    So thank you, Mr. Chairman. I look forward to our 
testimony.
    Mr. Souder. Thank you. And I would now like to recognize 
President Will to give us a greeting. I should have done that 
before my statement. I apologize.
    Ms. Will. Good morning. Thank you, Mr. Chairman. Good 
morning, everyone, and welcome to Gettysburg College. I am Kate 
Will; I am the president. And I would like especially to 
welcome Congressman Mark Souder of Indiana; Pennsylvania 
Congressman Todd Platts, of whom you have already heard from; 
former U.S. Attorney General and Pennsylvania Governor Dick 
Thornburgh; and I would also like to welcome representatives of 
our national parks, who are here today to testify, and all of 
you from the general public who have also shown interest and 
come today. We are very happy to have you at the college.
    And Gettysburg College was founded in 1832, which, of 
course, was before the historic battle that occurred here. And 
we really are on hallowed ground. If you look out that window, 
you will see the national park. It is visible right from here.
    I invite all of you to look around campus. As you know, it 
is a historic place. There are several Civil War buildings 
here. In fact, my office is in Pennsylvania Hall, which served 
as a hospital during the battle here in Gettysburg. And, of 
course, you are all welcome to take a look and see our 
beautiful town, our beautiful college, and, of course, the 
battlefield.
    This is a place that calls to people. It called to me. And 
part of the reason that I came to Gettysburg College is because 
of this amazing park that is here. It is such a place to learn, 
it is an inspirational place, and, in fact, it calls to over 2 
million people who come here to visit every year.
    So I am very proud to say that through partnerships, 
Gettysburg College is working with the national park and with 
the borough, and we are all working hard together in a 
collaboration to preserve what we think is one of the most 
special places in America.
    So thank you again for being here. We welcome our 
Congressman for this hearing, and please enjoy Gettysburg and 
Gettysburg College. Thank you very much.
    Mr. Souder. Thank you very much for your welcome. Before 
proceeding I would like to take care of a couple of procedural 
matters first. I ask unanimous consent that all Members have 5 
legislative days to submit written statements and questions for 
the hearing record, that any answers to written questions 
provided by the witnesses also be included in the record. 
Without objection, it is so ordered.
    Second, I ask unanimous consent that all Members present be 
permitted to participate in the hearing. Without objection, it 
is so ordered.
    Our first panel is composed of Robert W. McIntosh, 
Associate Regional Director for Planning and Partnerships, 
Northeastern Region of the National Park Service. As an 
oversight committee, as I mentioned earlier, it is our standard 
practice to ask all our witnesses to testify under oath. So 
would you stand and raise your right hand?
    [Witness sworn.]
    Mr. Souder. Let the record show the witness responded in 
the affirmative. Now we have a light system for 5 minutes, but 
being a field hearing, I am not going to hold it as tight. So 
if you want to add to that, otherwise we will draw out in the 
questions as well. In any statements that you make or any 
references to other materials, as I mentioned, will also be in 
the official hearing record. Thank you very much for being here 
today.

 STATEMENT OF ROBERT W. MCINTOSH, ASSOCIATE REGIONAL DIRECTOR, 
  PLANNING AND PARTNERSHIPS, NORTHEAST REGION, NATIONAL PARK 
                            SERVICE

    Mr. McIntosh. Thank you, Congressman. Before I start let me 
thank you and Congressman Platts for taking the initiative, 
taking the leadership on this very important subject concerning 
the status of budgets and the health of our national parks.
    The topic today from my comments will focus principally on 
Gettysburg National Military Park, Eisenhower National Historic 
Site, and Independence National Historical Park.
    The 2005 appropriation provided an increase of $63.9 
million for operation of the National Park System, a net 
increase. We are obviously pleased the Congress appropriated 
this level of funding. The average increase for park budgets 
this year is approximately 6 percent. Gettysburg received an 
increase of 6 percent; Eisenhower, an increase of 2\1/2\ 
percent; and Independence National Historical Park, an increase 
of over 4 percent. Importantly, the President's budget in 
2006--recommended budget includes an additional increase of 
about $50\1/2\ million above the 2005 enacted level, 
importantly allowing for many things, but including increases 
for pay and benefits and other fixed costs.
    The Park Service mission at Gettysburg is to preserve and 
protect the resources associated with the Battle of Gettysburg 
and the Soldiers' National Cemetery and to provide an 
understanding of the events that occurred here within the 
context of American history.
    The park was established in 1895, includes the cemetery and 
6,000 acres of historic farm houses, barns, fences, orchards, 
earthworks, roads, woodlots, and other key features of the 
battlefield.
    The top three priorities for the Gettysburg and Eisenhower 
are to implement the partnership agreements with the Gettysburg 
National Battlefield Museum Foundation to construct a new 
Visitor Center and rehabilitate portions of the Gettysburg 
battlefield; and to continue partnership efforts with the 
Friends of the National Parks at Gettysburg and others to 
rehabilitate the battlefield landscapes by bringing back 
missing features that affected the fighting in the major battle 
action areas throughout the park; and finally, to implement the 
Borough of Gettysburg Interpretive Plan with partners to 
restore and enhance historic assets in the town of Gettysburg 
and to bring more park visitors into the town.
    Gettysburg is the most visited Civil War site in the 
National Park System and has attracted an average of 1.79 
million visitors per year over the last 8 years. Over the past 
4 years the park has received operating increases. Operational 
funding for Gettysburg has increased from $5.069 in fiscal year 
2001 to $5.483 in fiscal year 2005. In addition, the park has 
received funds through the Natural Resource Challenge with an 
increase from $24,000 in 2001 to $113,000 in fiscal year 2005.
    The Superintendent at Gettysburg also manages Eisenhower 
National Historic Site, and the two parks share staff and 
resources. At Eisenhower, the National Park Service mission is 
to protect and preserve the resources associated with 
Eisenhower National Historic Site and to promote the 
understanding and appreciation of the life and work of Dwight 
David Eisenhower. The 690-acre site consists of the home and 
farm of General and President Dwight D. Eisenhower. Visitation 
to this site is approximately 72,000 visitors in 2004, and the 
operating budget for the site steadily increased from $1.036 
million in fiscal year 2001 to $1.07 million in fiscal year 
2005.
    Gettysburg and Eisenhower meet or exceed 50 percent of 
their 53 Government Performance and Results Act performance 
goals in fiscal year 2004. Goals that were exceeded including 
removal of exotic species, improved condition of historic 
structures, museum collections, educational programs, 
diversity, and donations. In addition, the park has instituted 
many management reforms, including the elimination of two 
supervisory positions, the site manager and the chief of 
maintenance at Eisenhower, with these duties being assumed by 
Gettysburg supervisors; and the conversion of three positions 
from the Park Service employees to private sector services in 
custodial work, painting, and architecture; and the 
consolidation of the Personnel Services Office functions with 
Gettysburg now covering Gettysburg, Eisenhower, Ft. McHenry, 
Hampton National Historic Site, and Assateague Island National 
Seashore.
    In the past 4 years $20.6 million in appropriated project 
funding has been provided to Gettysburg National Military Park 
in Eisenhower in line-item construction, repair/rehab project 
funding. Congress earmarked $11.9 million of these appropriated 
funds for the restoration of the Cyclorama Painting and the 
preservation treatment of the park's artifacts and archival 
collection, the $6.6 million for the rehabilitation of the 
Wills House in downtown Gettysburg, which is a recent addition 
to the park. Cumulatively, from 2001 through 2005 the park has 
received $3.3 million in funds for repair and rehab in addition 
to the base operating budget increases and another $689,000 for 
ongoing maintenance need.
    Much has been accomplished at Gettysburg since the Park 
Service began the implementation of the park's General 
Management Plan, which was approved in 1999. The GMP calls for 
the restoration of the battlefield and sets forth clear goals 
for operating the park. Recent implementation efforts including 
the removal of the Gettysburg Tower, the restoration of 
historic vistas, the replanting of historic orchards, the 
restoration of numerous monuments, and the acquisition and 
restoration of historic landscapes.
    The Park Service has been the fortunate beneficiary of 
generous donations from local partner groups and other 
resources. Funds and services from the Friends of the National 
Park at Gettysburg, Eastern National, and other sources over 
the past 4 years have proved approximately $1\1/2\ million.
    Gettysburg includes a major partnership with the Gettysburg 
National Battlefield Museum Foundation for fundraising, design, 
construction, and operation of the new Museum/Visitor Center 
for the park. The new facility will solve longstanding park 
problems associated with the preservation of the park's museum 
collection, preservation and display of the Cyclorama painting, 
and the provision of a museum complex to provide visitors with 
an understanding of the significance of the Battle of 
Gettysburg within the context of the cause and consequences of 
the American Civil War, and finally, the removal of two 
outdated visitor facilities and the restoration of historic 
battle landscapes where the buildings currently reside.
    The partnership will provide infrastructure funding at 
Gettysburg amounting to $68.3 million, which is the total cost 
to design and construct the Museum/Visitor Center facility, 
including the museum exhibits. Conservation of the Cyclorama 
painting is currently underway and is estimated at $9 million. 
The Museum Foundation's total fundraising goal is $95 million. 
They have secured $67.4 to date, including the $11.9 million of 
Federal funds appropriated by Congress in fiscal year 2002, 
2003, 2004, and 2005. Under the agreement signed by the Park 
Service and the Museum Foundation, all operation and 
maintenance cost of the Center will be covered by the 
Foundation for the next 20 years. Groundbreaking is tentatively 
scheduled for June 2005, assuming the Foundation has raised the 
$68.3 million by that time. And the hopeful opening of the 
Center will be 2004 or early 2008.
    An older National Park Service non-profit partner is the 
Friends of the National Parks at Gettysburg. Founded in 1889, 
the Friends is a multipurpose support organization with 25,000 
members and supporters from all over the world. Since its 
inception, the group has donated more than $6 million to the 
park at Gettysburg, and the Friends members have logged in more 
than 15,000 volunteer hours. The Friends have acquired 
historically significant battlefield lands, and in many cases 
clearing the way for the National Park Service to remove non-
historic buildings and rehabilitate the landscape, and most 
notably, the fields of Pickett's Charge and along the 
Emmitsburg Road Ridge. They have also acquired conservation 
easements in the Battlefield Historic District.
    As the park's primary partner in battlefield 
rehabilitation--an effort to bring back missing features that 
affected the fighting at Gettysburg in 1863--the Friends 
purchased the orchard stock for the replanting of five historic 
orchards on the battlefield in November 2004. Friends have 
converged on the battlefield to rebuild historic fences, help 
visitors get a better picture of the obstacles the soldiers 
faced during the heavy fighting. The Friends also acquire and 
donate artifacts for the park's museum.
    Finally, Gettysburg and Eisenhower's active volunteer 
programs include visitor services, Adopt-a-Position volunteers, 
Park Watch patrol volunteers, Civil War living history 
volunteers, Senior Ranger Corps, and others.
    At Independence, the purpose of that park is to preserve 
and protect the historical structures and properties of 
outstanding national significance associated with the American 
Revolution and the growth and founding of our Nation.
    The park was established in 1948 and includes Independent 
Hall, the Liberty Bell, and other national historic landmarks. 
It encompasses 55 acres in downtown, city center Philadelphia. 
In 2004 nearly 1.9 million visitors visited the Liberty Bell.
    The top three priorities of Independence are to finalize 
the long-term security plans for the Independence Hall and the 
Liberty Bell, especially in light of the city's decision to 
reopen Chestnut Street, and to complete construction of the 
landscape treatment of Independent Mall and to complete the 
President's House Site Interpretation and Commemoration.
    Funding for Independence has increased from $15.18 million 
in fiscal year 2001 to $21.856 million in fiscal year 2005. 
These increases primarily funded additional visitor services 
and security costs following the attacks of September 11th. 
Augmenting these base funds were $2\1/2\ million from 2001 to 
2005 for ongoing repair and rehabilitation.
    Congress has addressed the infrastructure needs of 
Gettysburg by appropriating $17 million in the past 4 years in 
line-item construction and repair/rehabilitation projects. 
$6\1/2\ million of this was for the rehabilitation of 
Independence Square, and $6.6 million was for the utility and 
exhibit work at the Second Bank of the United States. Funding 
was also provided to continue work on Independence Mall 
landscape project and to replace hazardous walkways elsewhere 
in the park.
    Independence and the Liberty Bell have been designated by 
the Secretary as key resources that merit special anti-
terrorism security measures. Since September 11th the budget 
for the park's law enforcement operation has increased by 
approximately $5.2 million, from $2.4 to $7.6 million.
    Independence has been at the forefront in establishing 
effective partnerships to provide high-quality services to the 
visiting public. Most notably, these efforts include the 
jointly operated Independence Visitor Center, which recorded 
about 1.9 million visitors in 2004. The new National 
Constitution Center, which saw almost 800,000 visitors in 2004, 
and Historic Philadelphia, Inc., which provides costumed actors 
throughout the park. In addition to these, there are about 40 
other different partnerships in the park. In fiscal year 2003, 
211 volunteers logged about 13,000 hours in contributions to 
the park.
    Once again, let me thank you both for being here and 
conducting this hearing. And I would be pleased to answer any 
questions you might have.
    [The prepared statement of Mr. McIntosh follows:]

    [GRAPHIC] [TIFF OMITTED] T3039.004
    
    [GRAPHIC] [TIFF OMITTED] T3039.005
    
    [GRAPHIC] [TIFF OMITTED] T3039.006
    
    [GRAPHIC] [TIFF OMITTED] T3039.007
    
    [GRAPHIC] [TIFF OMITTED] T3039.008
    
    Mr. Souder. Thank you. I will start with some questions, 
and some of these may be more detailed than you are prepared to 
handle today. And if so, could you indicate and we will submit 
them as written questions. I want to put some of them on the 
record even knowing that because it is kind of fundamental to 
the information that we are seeking in the hearings. I am going 
to address a few that will include Gettysburg and some about 
Gettysburg, although I may go a little broader and into some of 
the other parks in a little bit more detail, because the second 
panel will be almost exclusively--or at least for the most part 
focused on the Gettysburg Military Park and Civil War Parks.
    Could you clarify for the record that your regional 
office--what territory you cover.
    Mr. McIntosh. The northeast region encompasses 13 States, 
Maine to Virginia, West Virginia.
    Mr. Souder. And for purposes of today's hearing, since we 
are planning at least at this point to do something most likely 
in the Boston area--we will separate New England--so 
basically--and any materials I request or questions would be 
New York, Pennsylvania, Maryland, Virginia, District of 
Columbia, West Virginia region. You said that there are 
approximately 1.7 million people who go through Gettysburg 
National Military Park, about 1.9 million at the Liberty Bell. 
Do you know from their statistics you had 7.2 million, I think, 
for the whole--all the buildings at Independence----
    Mr. McIntosh. That is correct.
    Mr. Souder [continuing]. Does anybody--what percent don't 
go to Liberty Bell? Would you say the Liberty Bell is pretty 
well a barometer of the----
    Mr. McIntosh. I think that the way the security operation 
operates now that the Liberty Bell tour includes the 
Independence Hall as well, so it is--I think that is the--from 
the tourism, you know, destination, that is the majority of 
visits, but there are a lot of other assets in the park that 
attract visitors, many in some respects more local, recurring 
visitors. So there is a number much more significant and----
    Mr. Souder. So----
    Mr. McIntosh [continuing]. I am not sure exactly how it is 
counted, but that number does exceed the 1.9. And the----
    Mr. Souder. Yes, so maybe 2\1/2\ or something like--because 
if I went to three or four sites, I would be counted three or 
four times in the----
    Mr. McIntosh. That is what----
    Mr. Souder [continuing]. System.
    Mr. McIntosh. Yes.
    Mr. Souder. Is the largest attendance in your area the 
Gateway? Is it around----
    Mr. McIntosh. The recreation area?
    Mr. Souder. Isn't it like 12 to 14 million, something----
    Mr. McIntosh. Yes, the--yes.
    Mr. Souder. Which is an interesting challenge for the Park 
Service because Golden Gate, Gateway, Santa Monica are actually 
now five times bigger than the biggest single park in 
attendance. Now at Gateway is that predominantly because of the 
beach there? Is that the No. 1 attended----
    Mr. McIntosh. Most of the visitation at Gateway is day use 
at the beaches. That is correct.
    Mr. Souder. Because that makes it very hard to figure out 
how to use attendance and how to qualify attendance when we are 
looking at it in terms of budget. For example, Natchez Trace 
Parkway is seventh, but that is because people use the road.
    Mr. McIntosh. Right.
    Mr. Souder. The danger here is because some of my questions 
are going to be--and I want to put that on the record so people 
understand the complexity, and that we understand the 
complexity, of when we get into a budgeting process, do you 
look at attendance--how do you determine when you are allocated 
funds internally or you are making recommendations from the 
regional area? Do you look at something like Gettysburg 
National Military Park as opposed to, say, the Eisenhower site 
or as opposed to several others that you have clustered 
together here in this region where you have, for example, Ft. 
McHenry and Hampton, do you look at--that there are 1.7 million 
at Gettysburg and 70,000 at Eisenhower in your budgeting 
requests? What kind of tradeoffs do you have in making 
decisions about what backlog you are going to fund, what land 
you are going to add, and can you go through a little bit of 
that process?
    Mr. McIntosh. Well, I think that the numbers, as far as 
visitation are concerned, indicate impact on the resources. And 
be it a day visitor to Gateway Beach or a visitor to a historic 
house, the continuation of those visits obviously impacts the 
resources. But the primary factor that we use in determining 
the allocation of money is not the visitor, but the condition 
of the resource. So that while there may be a contribution of 
condition as far as visitor use is concerned, that is not as 
important to us--it may be a causal effect in terms of 
condition--but the real budgetary criteria falls in the 
condition of the resource. So even though we had low 
visitation, if a nationally significant resource was in danger, 
we would certainly give that its appropriate place on the 
priority list.
    Mr. Souder. So, for example, when something like the Wills 
House came up where Lincoln stayed with the Gettysburg Address, 
what would be some measurements of how you would determine 
whether that would become on a request list as opposed to 
something at a site that may not get as much visitation or may 
not be as nationally significant----
    Mr. McIntosh. Well----
    Mr. Souder [continuing]. That needs maintenance, for 
example?
    Mr. McIntosh. Right. Well, first of all, the, you know, the 
multiple factors that we use in project justification and 
condition of the resource is, generally speaking, the primary 
one. At the park level the park needs to make a decision as to 
what its priorities are, and then that is through the region 
and then into a national priority setting analysis. We use it 
across the board annually to try to set or readjust our annual 
priorities.
    So the condition of the resource is a factor in the budget 
analysis that we use. The cost of repair is also a factor. So 
it is a balancing act, obviously, between condition of resource 
and how much it is going to cost, and we try to set the 
priorities in that respect.
    Mr. Souder. So when you would--you see yourself in the 
regional office speaking for the Park Services, predominantly 
looking at how to maintain what you have the best, not looking 
at historic resources outside the park that would be important 
to add to the system?
    Mr. McIntosh. I am not sure if I----
    Mr. Souder. In other words, when I use the example of the 
Wills House, let us say before the Wills House came into the 
system, would you look at something like that in Gettysburg and 
say adding that to our system is more critical than, say, 
taking down and replanting the peach orchard on the 
battlefield, maintaining a monument from a given state? I am 
trying to sort this out.
    Mr. McIntosh. Well, I mean, that question directs us to the 
general management lending process. And through that process we 
try to do, you know, maybe on an average of, say, 10 to 15 
years for every park. We have the opportunity to look at the 
resource that exists within the boundary, and in certain cases 
we look at important resources that may have not been 
appreciated at the time the park was originally established, 
but over a historical work or public appreciation or otherwise, 
become more important to us. And we look at what the 
opportunity or what the appropriate role for the National Park 
Service is in protecting those resources. And in many cases you 
will find that our General Management Plans result in minor 
boundary modifications where important resources should be 
protected within the park's resources.
    The tradeoff sometimes is restoration work of an orchard 
can wait because nothing is being lost particularly in that 
sense. You are recreating a scene as opposed to a historic 
structure that, if the roof isn't fixed or the foundation or 
whatever the problems may be, that structure could be lost 
permanently. So that clearly is a tradeoff factor that gets 
very serious consideration.
    Mr. Souder. Let me ask you a couple of technical things if 
you can provide them for the committee if you don't have it. Do 
you believe the park budgets of the last 3 years have 
eliminated the shortfalls identified in the business plans? In 
other words, as you have laid out these business plans, the 
funding hasn't kept up with those plans. What percentage of the 
gap has the supplemental covered?
    Mr. McIntosh. Well, I can't answer the question 
specifically in terms of what the supplemental gap has been 
recovered. I think the General Management Plans and the 
business plans present the service with an interesting 
opportunity to get a comprehensive snapshot of the condition of 
a park, and it provides the park the opportunity to develop 
what we call the investment strategies, which may not--and in 
many cases do not--rely solely on appropriated dollars.
    The example here in the testimony with respect to 
Gettysburg and the partnerships with the Friends and the 
partnership with the Foundation are key elements to implement 
the General Management Plan are to work toward solving some of 
the problems that were identified in the business plans. The 
percentage of gap, I am not sure if that is an answer that has 
a real black-and-white answer, but if you would like us to 
followup on that, we could do that.
    Mr. Souder. Actually, rather than that, let me ask you 
these two questions I would like followup on, and just 
arbitrarily pick a small number of parks so we don't have a 
huge paperwork question. Let me pick Gettysburg, Independence, 
Valley Forge, Antietam, and Ft. McHenry to pick a pretty wide 
range. Actually, rather than Ft. McHenry, let us do Gateway 
because it is the biggest. And of those, what I would like is 
the percentage of rise in the fixed cost; that is, the salary, 
the benefits, etc., in the parks and the budget--how the budget 
of the parks has risen so we can see the proportionate shift, 
which shouldn't be too hard to get because sometimes Congress 
makes all these long questions with lots of detail, but that 
should be fairly simple.
    And then second, if you can give me the actual raw number 
at those parks of the permanent and seasonal staff that were 
there 4 years ago, and how many they each have today. Now, I 
want to say up front that this is happening across the board of 
the government. In other words, every place has had to make 
adjustments. And that isn't--I think it was the case of whether 
there was overstaffing before or understaffing today, but we 
need to have the raw data. And by showing--we need to get a 
feeling for how fixed costs are changing to the variable costs, 
which is impacting the backlog, and also what this means for 
actual numbers of staff in the park.
    Clearly Gettysburg, Independence, and Valley Forge are 
three very significant parks here in Pennsylvania, and if we do 
that Antietam as another Civil War site and Gateway, that gives 
us somewhat of a range. Now, I would like to----
    Mr. McIntosh. In terms of the span of time, we will use 
2001 to 2005?
    Mr. Souder. Yes.
    Mr. McIntosh. OK.
    Mr. Souder. Or whatever works. 2000 to 2004, I don't--might 
not have 2005----
    Mr. McIntosh. OK.
    Mr. Souder. Mr. Platts.
    Mr. Platts. Thank you, Mr. Chairman. I wanted to maybe 
continue a little bit on the same line. And, Mr. McIntosh, I 
first want to just thank you for your service and efforts on 
behalf of the national parks and especially the Northeast 
region. I have had the pleasure of visiting many of the sites 
in your region, last summer up in Boston in Constitution and 
Lexington, Concord----
    Mr. McIntosh. Excellent.
    Mr. Platts [continuing]. And it is just a great resource, 
not just for us adults, but especially for our children and for 
my son and daughter. It is so great to go experience history 
through those sites. Here at Gettysburg, I guess probably every 
member who has the privilege of representing a national park 
who believes theirs is the most important--or one of the most 
important. I certainly feel that way about Gettysburg and the 
key role that this battle here played in our Nation's history.
    In what manner does the Park Service go about prioritizing 
funding from a historic and cultural significance within the 
Park Service? In other words, within the general budget of the 
Federal Government, we have set our priorities of what we have 
funds to spend on. We are going to, you know, make decisions 
about what we can spend money on and what we can't within the 
specific Park Service.
    Is there a, you know, additional weighting given to, say, 
Gettysburg because of the huge historical significance of this 
site versus some other sites in the Park Service itinerary?
    Mr. McIntosh. Well, the first rule of thumb is that every 
park is a crown jewel, so it doesn't make for easy 
decisionmaking as far as priorities are concerned. The large 
blocks of our funding are not generally distributed through 
natural or cultural, and primarily because you cannot go to a 
``natural resource park'' and not find cultural resources and 
the vice versa. So within the line-item construction program, 
which is probably the biggest block of funds that goes toward 
rehabilitation of historic structures, that is followed by what 
we call the repair and rehabilitation fund program.
    Those projects are individually competed on the status or 
the condition of the specific resource in that park. So if it 
is Independence Hall or the Wills House or something in San 
Francisco in the Presidio, they are independently competing on 
the conditions of those particular resources. And time and 
again you will find special initiatives within our budget.
    Vanishing Treasures was one of them where we had 
longstanding issues with adobe structures in the Southwest, and 
that was a special category of funding that was set up. It was 
receiving several million dollars a year over many years.
    So there are certain situations in which there is 
particular response, but in general, it is individual resource 
against resource.
    Mr. Platts. Is there any thought that you may add in a 
way--Park A has the most deteriorating, you know, most at-risk 
structure, but compared to Park B, a structure that maybe isn't 
in as bad of shape, but it has a greater historical 
significance to our Nation, is there any thought of giving that 
type of weighting?
    Mr. McIntosh. Those independent factors are in the 
evaluation system, but it is not Gettysburg versus 
Independence; it is the historic house versus the historic 
house.
    Mr. Platts. The commitment--I look at Gettysburg as a 
Subcommittee Chair for Government Management, Finance, and 
Accountability, I spend a lot of time on GPRA and didn't maybe 
know a whole lot about GPRA 3 years ago before I became 
subcommittee Chair and now know a lot more about the process.
    And you reference Gettysburg in the 94 percent of the time 
where they met or exceeded the 53 GPRA goals, and I think that 
is a testament to our Superintendent John Lassiter and his 
great staff. It says we are doing a pretty good job here at 
Gettysburg with the resources provided.
    And the challenge is the level of resources. And I 
appreciate there have been--and I think in your words--steady 
increases, but I think it is important that we have a frank 
dialog about what those increases really mean.
    And the chairman kind of alluded to while we have seen 
increases in money, we, at the same time, are seeing reductions 
in staff because those increases really don't amount to current 
value increases when you factor in inflation, fixed cost 
increases, salaries being mandated by us, and we are not 
keeping up.
    And my understanding in just one may be a snapshot of what 
the chairman was talking about on permanent staff is that we 
went from 90 permanent staff in 2002 here at Gettysburg to 80 
permanent staff in 2005. So 1/9, 11 percent reduction if my 
numbers are correct while we saw ``steady increases.''
    The request--I believe it is $50 million in this year's 
budget--is that, in essence, to just hold the status quo to 
keep up with, in essence, inflation but not really start to 
reverse the trend we have been seeing?
    Mr. McIntosh. To my understanding of the 2005 and the 
request at 2006 is basically to try to stabilize against that 
erosion. That is correct.
    Mr. Platts. Because the challenge is that we were blessed 
with great rangers and staff throughout these parks, and I will 
use the experience of visiting the Oregon Caves National 
Monument two summers ago and just had a wonderful visit and 
tour through the cave and a great seasonal ranger who was 
guiding our group. And I wasn't identified as a Member of 
Congress. I was just a dad there with my wife and children 
until afterwards I actually then identified myself when we were 
all done and had a frank conversation with the ranger. And I 
was saying my daughter, who is 3\1/2\, just by a couple of 
curls of her hair made the height restriction to get into the 
cave. But when we got done we had a conversation with the 
seasonal ranger, and what came through to me is we were asking 
one heck of a lot of these individuals and the sacrifices they 
are making because of their desire to serve, whether it be our 
permanent positions or our seasonal positions.
    And the importance of us kind of leveling off, hopefully, 
and reversing that trend, and my hope is that the Park Service 
will really be pushing Congress to meet the needs of those 
staffing requirements, because we clearly have a long way to 
go.
    In your identifying priorities at the parks, I want to give 
you an opportunity to talk about the top three priorities at 
Gettysburg as well as at Independence. And the items you talk--
these certainly are critical items, but one of the ones to me 
that was missing in the sense of what I would hope you were 
looking at is the everyday experience of a visitor is that day-
to-day operating and that day-to-day funding. Because most of 
what was identified are capital efforts that are important and 
we must go forward with and prioritize, but nowhere do you 
mention just the visitor coming out there. And it relates to a 
specific percentage.
    And my understanding is that today, because of staffing 
levels, only 5 percent of visitors to our parks are able to 
access a ranger program or to have the services of a ranger 
because of the limited number out there. Is that accurate?
    Mr. McIntosh. I couldn't answer that specifically to my 
knowledge. I mean, the reality is that a lot of visitors have a 
very limited interaction with a ranger, and in many cases those 
services are supplemented by volunteers or supplemented, as in 
Gettysburg, with Gettysburg tours and other providers. But over 
the years the ability of the service to maintain a ranger 
presence, a very visible and active ranger presence, has 
declined.
    Mr. Platts. And as one who has benefited again from those 
interactions, I think that needs to be a priority and would 
hope that in the front office in the region that while we look 
at those capital needs, we make a priority of the day-to-day 
experience of a visitor. We certainly, I think, are doing that 
at the local level with our park superintendents and rangers.
    But, again, their ability to fulfill that mission is guided 
by how much money they have, how many people they have. And 
when you go from 90 to 80, 11 percent reduction, that greatly 
impacts it.
    I want to touch on a specific item, and it relates to the 
importance of the partnerships. Because we are blessed here in 
Gettysburg with great partnerships with the Friends, with the 
Foundation. And if you look at the dollars contributed and the 
man hours contributed since 1989 by the Friends, tremendous 
investment in this treasure here at Gettysburg.
    And with the Foundation, looking at the capital investment 
of tens of millions of dollars, it is going to be so important 
to the future experience of visitors. But as we promote those 
partnerships here at Gettysburg, one of the issues that, I 
guess, is of concern to me if I understand this issue 
correctly, with the new Visitor Center moving forward with the 
plan--groundbreaking as of--now, I guess, in June of this year 
and hopefully maybe 87 and opening, one aspect of that 
partnership between the Friends and the Foundation and the park 
itself and the Borough is an ability for visitors to experience 
Gettysburg in total through a transit system.
    And I wonder if you have any specific information on 
funding that was to be provided for the shuttle system that was 
going to kind of be a key cog in this partnership here in 
Gettysburg that my understanding is not going forward as 
planned within the Park Service budget. And I would appreciate 
your commenting on that.
    Mr. McIntosh. Congressman, I don't have any real specific 
information on that. We can followup as a question and provide 
you that information.
    Mr. Platts. If you could--actually, on both items, the last 
two questions, one is if you have any information about 
visitors' interactions with rangers and if there is any 
internal review that has been done and how that has been 
impacted by the budgeting of staff positions.
    And then on the specific issue of funding for the shuttle 
system here and providing information to the committee, that 
would be very helpful. Because I raise that not just because it 
is the park I represent, but it is an issue here, and it is 
important because as we get close to 2 million now visitors to 
Gettysburg, getting them to come downtown because if they 
don't, they are going to miss one heck of a big part of the 
picture of the Battle of Gettysburg and the role the Borough 
played in the battle--and the sites here, Wills House and the 
train station and other historic aspects of the Borough.
    Mr. McIntosh. I would add that we have had some very 
recent--in the last 4 or 5 years--success at Acadia, in which 
we have joined with the State and the local communities, and 
together with donations as well from the private sector operate 
the Island Explorer, which has many routes throughout the 
island, but connects the community and the park and takes the 
cars off the road and gives people a----
    Mr. Platts. It is a win-win----
    Mr. McIntosh [continuing]. Much better experience.
    Mr. Platts [continuing]. I think from--I mean, getting all 
the vehicle traffic out of the park to better preserve that 
scene and from convenience--I know you have done it at Zion----
    Mr. McIntosh. Zion.
    Mr. Platts [continuing]. Where we have camped and camped 
there many years ago before it was in place, have camped there 
since--when it has been in place and think it is a win for the 
parks and for the visitor of being able to easily access the 
sites. But is also important that we keep the commitments in. I 
see the funding for the shuttle system here in Gettysburg--one 
of those commitments between all the partners, the Foundation, 
the Friends, the park----
    Mr. McIntosh. Right.
    Mr. Platts [continuing]. And the borough, and that we on 
the government's side keep our side of the commitment. And I 
would welcome some specifics on where that funding stands for 
the shuttle system here at Gettysburg.
    Mr. McIntosh. I will followup on that.
    Mr. Platts. Thank you, Mr. Chairman.
    Mr. Souder. Thank you. I want to followup with a few more 
detailed questions. In the question of Independence Hall and 
the reopening of Chestnut Street.
    Mr. McIntosh. Yes.
    Mr. Souder. Is that the street that goes on the Mall side?
    Mr. McIntosh. Between the Independence Hall and the Mall, 
yes.
    Mr. Souder. There has been a lot of pressure on the city to 
open that for some time. Did they account for the fact--I mean, 
one of the things we have been trying to do is not have more 
traffic go right through the heart of parks. When was that 
decision made? How recent?
    Mr. McIntosh. Immediately following September 11th the 
Chestnut Street was closed. It was closed for some period of 
time, and then--I would have to research to give you the 
specific date but----
    Mr. Souder. It was a year ago.
    Mr. McIntosh. A year ago. There was a decision on the part 
of the city to reopen Chestnut Street between the fifth and 
sixth block, which is the block that runs immediately in front 
of Independence Hall. That is, you know, it was of concern to 
the city in terms of the flow of traffic and business, and it 
certainly continues to be a concern to the National Park 
Service.
    That decision on the part of the city has resulted in the 
Department of the Interior, the Park Service risk analysis 
coming back to indicate that is probably the most vulnerable 
icon in the system because of that decision.
    Mr. Souder. With the additional rangers that you have had 
to put there, did you draw those in from other parks?
    Mr. McIntosh. Originally that was the plan in which we 
addressed concerns at all the icon parks. More recently, we 
have changed that venue and actually have contract service 
security people.
    Mr. Souder. So for the funding of the contract service 
security for Independence, was that in addition to the budget 
or did that come off of that park's budget?
    Mr. McIntosh. No, Independence received--I don't remember 
the number exactly. It is in the testimony----
    Mr. Souder. Yes, I saw that.
    Mr. McIntosh [continuing]. Of 5 million or so for 
significant increases, and part of that was for increased----
    Mr. Souder. And when----
    Mr. McIntosh [continuing]. Security cost.
    Mr. Souder [continuing]. The Park Service came up with that 
Homeland Security dollars with which to do the--was that part 
of a national icon budget? Did you have other icons in your 
region that received supplemental Homeland Security funds----
    Mr. McIntosh. Yes, sir.
    Mr. Souder [continuing]. As well?
    Mr. McIntosh. Yes.
    Mr. Souder. Did that come out of a pool of money that you 
each submitted, then, proposals for? How did that work?
    Mr. McIntosh. That was a national service-wide assessment 
of what the needs were. For our region that includes the 
Charlestown Navy Yard where the U.S.S. Constitution is, even 
though that ship is an active ship in the Navy we hosted at the 
Navy yard. That includes the Statue of Liberty and Ellis Island 
and Independence Hall and the Liberty Bell. Operating funds as 
well as capital dollars were provided sort of at the top of the 
budget for a couple of years to provide that supplemental 
funding.
    Mr. Souder. We will followup on whether we want 2000, 
2004--2001 to 2005. Can you show us the dollar and the fixed 
cost? What I am trying to identify is whether, when your region 
got an increase, how much of that increase went for pensions, 
health care costs, and staffing, and how much of that went for 
Homeland Security, and whether, if you take out those two 
categories, your region actually had a net reduction in 
funding? So what I think I am seeking is just the total funding 
for the region----
    Mr. McIntosh. OK.
    Mr. Souder [continuing]. And the total funding of the fixed 
cost--personnel cost for the region or other fixed cost, and 
then the Homeland Security costs, and to see, for example, if 
you have a 3-percent increase, did, in fact, those two things 
chew up 7 percent? That clearly there has been some backlog 
addressing, but there has also been--as we will probably 
discover because we have seen it all over the Nation--a 
reduction in the number of permanent and part-time personnel, 
and to some degree, in spite of putting additional dollars at 
the backlog, we have not had a net gain on the backlog because 
when one thing gets fixed, another thing is coming along----
    Mr. McIntosh. Right.
    Mr. Souder [continuing]. Stream. So it is a challenge in 
trying to figure out, as Congress, how we balance that in 
tradeoffs. And by the way, I want to make it clear again that I 
believe there are some efficiencies. The question is how we 
identify and work these efficiencies. Now, addressing that 
question, have you--in the Pacific Northwest they have had some 
networking among the parks in order to save costs, and so have 
you done that in your region as well?
    Mr. McIntosh. Yes, sir, absolutely. In the ``good old 
days'' everybody had to have one of those, but with the ability 
of the electronic services of things like personnel actions, 
budget documenting, and payroll expenses, and all that type of 
stuff, is automated and you can achieve great efficiencies by--
as in the case of Gettysburg being the personnel servicing 
office for several parks in a cluster around this part of the 
region.
    Mr. Souder. So you have consolidated certain personnel and 
administrative functions. Have you worked as they have in the 
West? And I don't know whether--I am trying to think whether 
you would have any parks in your area where you have national 
forest--we don't have much BLM land east of the Mississippi--
where you have done joint operations with Fish and Wildlife or 
with other Department of Interior or Forest Service agencies 
for campgrounds, for example, and other things?
    Mr. McIntosh. We don't have that opportunity as much in the 
East and the Northeast as they do obviously in the West. The 
park in our region that is surrounded most by national forest 
lands is--and it is not contiguous either--is Shenandoah in the 
Western Virginia.
    But there is a lot of--at the local level, at the park 
level--there is a lot of work with other public lands, State or 
local, and even private operators in trying to achieve a 
balance of service delivery and understanding whether or not 
more campgrounds are needed in the park or less, and those 
types of decisions.
    But it is not as--you go to Yellowstone, and there are 
three property owners on your boundary, and they are the Forest 
Service and the Jackson Hole and the Official Wildlife Service. 
In this part of the world you have hundreds on----
    Mr. Souder. So you think like us at----
    Mr. McIntosh [continuing]. One side.
    Mr. Souder [continuing]. Delaware Water Gap?
    Mr. McIntosh. Well, there is no Federal land adjacent. 
There is significant State land. And I know we work pretty hard 
with both State Departments of Transportation and certain 
visitor facilities and----
    Mr. Souder. And one of my frustrations from the time I got 
involved as a Member of Congress was--before I was a Member of 
Congress frustration as well, but it is--as a management 
person--is to why we don't thematically cluster certain parks, 
both for cross-promotional purposes at the parks--Lewis and 
Clark was kind of our classic----
    Mr. McIntosh. Yes.
    Mr. Souder [continuing]. And now--partly because it crossed 
multiple agencies, but we were kind of forced into it as we 
have moved toward a long-term planning--but enables the system-
wide to look at it and say, here are some parts that are 
significant that need to be preserved. Here is where the 
upgrades are. And to look at it across zones and across parks, 
because much of what you described earlier was internal inside 
a park prioritizes and then the park gets a budget, but there 
is no kind of cross-prioritizing. Even in some of the personnel 
that I believe your testimony listed that you had a fairly 
diverse group of parks that have been consolidated for 
management purposes.
    Do you have anything that--because clearly in the 
Revolutionary War period with the exception of some of us in 
Indiana and--with George Rogers Clark, there wasn't much 
activity in the Revolutionary War.
    Do you look in your zone--do you have a Revolutionary War 
management subgroup that would be looking simultaneously at 
things like Valley Forge, Brandywine, Independence, the Boston 
parks, Washington Crossing?
    Mr. McIntosh. Yes, we look at it two ways; we look at it 
geographically. Most recently we have established the National 
Parks of New York Harbor, which would include the Manhattan 
sites, which is several historic--about a half-dozen historic 
sites in Manhattan--Gateway, the Statue of Liberty, Ellis 
Island, and the new national monument at Governor's Island. We 
have established a senior position in New York to oversee that 
group, and the whole thrust there is that my experience in New 
York in the 1980's was I was this column over here and there 
were three or four other columns. We talked but we didn't 
really work that actively together.
    This approach will underscore opportunities in terms of 
philanthropy. We will underscore better transportation 
opportunities, or at least try to evolve better transportation 
opportunities given the potential of the harbor and water-born 
transportation to move people as we do now, obviously, from 
Manhattan and New Jersey to the Statue of Liberty, but to 
provide water access to the beaches as well as the historic 
sites throughout the park. We also look thematically.
    Maybe almost 10 years ago we convened the Civil War Parks--
on their own initiation convened a symposium. That resulted in 
a document called ``Holding the High Ground.'' That spoke to 
impacts of land use adjacent to battlefield parks. It spoke to 
issues of interpretation. It spoke to issues of battlefield 
preservation, landscape preservation, and so on. So that has 
been a very successful effort that has helped give visibility 
and some momentum in terms of a budget response to those 
issues.
    There is a parallel effort. We are approaching the 225th 
with respect to the American Revolution. There is a parallel 
effort underway involving the Revolutionary War parks. There is 
a report being finalized--a parallel report to the Civil War 
Battlefield Commission Report. Congress asked us to do the same 
thing for the Revolutionary War battlefields. That is 
substantially completed at this point, so we should see the 
results of that pretty soon.
    So there are activities, but on the other hand, our budget 
formulation process is still more or less oriented on a park-
by-park basis. So there is some evolution that could take place 
there.
    Mr. Souder. On the Valley Forge Visitor Center, could you 
elaborate? Apparently the Park Service has some concerns about 
the proposals on the table, and how do you see this working 
through? Could you----
    Mr. McIntosh. The opportunity there manifested in the 
discussions between the park and then the Valley Forge 
Historical Society. We obviously have the park, the park has a 
collection, the Valley Forge Historical Society had a 
significant collection that was 99.9 percent in storage. And 
the conversations between us evolved into the concept of a new 
Museum Visitor Center for the park. That effort has been in 
discussion approximately 10 years.
    The concept is the creation of a museum to be operated by 
the non-profit partner, the American Revolutionary War Center, 
and it to be a self-sustaining project. The estimates for 
construction are in the order of $80 million. The estimates for 
the annual operating cost are in the order of $10 million.
    And I think the issue--there is several issues, but the 
issue centers most directly on the financial feasibility of the 
operation. As well all know, it is easy to raise the capital 
dollar, but sustaining a $10-million-or-so operating budget is 
the challenge.
    And there is concerns on the part of the Park Service, and 
there is concerns on the part of the Appropriation Committee 
that if, you know, all the projections are good, but if they 
fail, what is the risk and exposure to the National Park 
Service after you have built an $80 million building? That 
project is being very actively worked on. It has the direct 
attention of one our Deputy Directors, Don Murphy. We are now 
at a stage in which we are doing two things very specific to 
the budget question; one, undertaking a fundraising feasibility 
study; and two, we have some third-party interests looking at 
the pro forma in terms of the operating cost, the revenue 
streams, the potential revenue streams, and the operating 
costs, be it from revenues in the museum, be it from donations, 
or be it from appropriated dollars though the National Park 
Service.
    Mr. Souder. Well, I have lots more questions, but I will 
submit the rest for the record. And before I yield to Mr. 
Platts I want to do one followup with that. A number of years 
ago--because I understand the concerns about long-term when 
we--the public-private partnerships are clearly the way we are 
going with Visitor Centers, Gettysburg being a classic example.
    And let me reiterate, we have to address the transportation 
question because one of our major selling points that we had 
for moving the Visitor Center off the grounds was how to 
integrate into the community.
    And I actually, by then, remember Mr. Goodling spoke to one 
of the retail merchant's groups because he was getting so much 
heat, and said no, this was how we were going to do it. And we 
need to figure out how we are going to address that.
    Now, some of them need to be public-private partnerships. 
And the town needs to probably help with this too, and we need 
to figure out--because these transportation systems--Zion is 
working reasonably well, Bryce has had multiple problems, Rocky 
Mountain has been up and down, and Grand Canyon and Yosemite 
are wild cases that we are trying to work through. Acadia has 
been no piece of cake.
    And as we do this, we have to figure out how we are going 
to fund it, given the fact that Congress isn't given adequate 
funds into the park's maintenance budget, let alone for new 
transportation systems.
    Mr. McIntosh. Right.
    Mr. Souder. Yet it is absolutely critical, and we made a 
promise there in this pledge.
    But coming back to the Valley Forge Visitor Center that I 
really don't have a dog in the hunt on the Visitor Center 
because I am concerned too that these things--if we can raise 
the capital--how we are going to maintain these given the fact 
of what we are likely to see as we go through the series of 
hearings on the staff reductions.
    And there is only so much volunteering that is going to be 
able to cover the gaps. But I am very concerned about historic 
collections. And my understanding--because we saw what happened 
at the Adams Historic Site as the private group lost the 
patience and they split up Adams. And now we will never get it 
back together.
    And then that came into question of what can we do to at 
least purchase certain things; how can we keep in storage? 
Somewhere around 8 years ago when I went up--the Bennyhoff 
collection was in a little museum next to the church on the 
grounds. Is that the collection that was there?
    Mr. McIntosh. That is a private collection, and the 
society's collection was in the building at the church.
    Mr. Souder. Did they get kicked out----
    Mr. McIntosh. I wouldn't----
    Mr. Souder [continuing]. Or are they still there?
    Mr. McIntosh [continuing]. Put it in those terms, but they 
have agreed to relocate, yes.
    Mr. Souder. I think that they did get their lease renewed, 
which is a nice way of saying it. But they had diaries that 
were not protected.
    Mr. McIntosh. Absolutely.
    Mr. Souder. They had, I think, one of Washington's 
uniforms. They had the pewter cups from Anthony Wayne, 
Alexander Hamilton, Von Steuben, De Kalb, all in one place. It 
was, even at its best, a dusty, musty, little place that 
probably has the largest collection of Revolutionary War 
materials in the United States. If this deteriorates and is 
lost while we are trying to figure out how to do a Visitor 
Center, what can be done in working with the group to make sure 
that the artifacts aren't ruined by the time we get a visitor 
center worked out?
    Mr. McIntosh. Well, that is a very important question. In 
the Northeast region we have approximately 25 percent of the 
collection of the National Park Service. There is another 25 
percent in the intermountain region. So between those two 
regions, which is about 160, 170 parks, are those collections. 
We were fortunate with Congress's help about 15 years ago to 
start the real investment in our collections. And as a result 
of that, you know, step one obviously is the inventory, and 
whatever number we thought we have is more than has gone out of 
sight. Because as we tried to count or did count under 
professional standards, the numbers just continued to get 
bigger and bigger. You know, somewhat because of new sessions, 
but probably more importantly, because of our new standardized 
professional counting, in this region we have a 13-percent 
growth in our documented collections between 1999 and 2004.
    And discoveries in this process--startling discoveries are 
made every day. In the Longfellow home--the Henry Wadsworth 
Longfellow's home in Cambridge, MA, only the students of that 
site know that was also Washington's headquarters during the 
Revolutionary War when he was in Boston. In the basement, in 
the shoebox, we found documents signed by George Washington 
that had survived through generations and fortunately have not 
been harmed. And the point you raise is a critical, critical 
point.
    We have a collections management plan for the region that 
is being updated as we speak. We meet about 73 percent of our 
standards across the region, some parks in very good shape, 
some parks needing a lot of help. We did a project, again, 
starting about 10 years ago in the archival conservation of the 
Olmstead drawings at the Olmstead sight in Brookline, MA. Here 
we found these drawings, not in the tube to be protected but 
just roles of paper in the basement in a vault that had two 
exterior walls. And over time the damp and deterioration of 
those documents was significant. We were able to set up a 
conservation lab and preserve them--or conserve them. And we 
just completed that last summer.
    So there is a steady stream of activity, but nonetheless, 
there are certainly collections in peril in certain locations. 
The collection at Valley Forge is stored in the administrative 
buildings at Park Headquarters. It is also stored in some of 
the houses and buildings throughout the park because of 
inadequate space that meets professional standards.
    The project as it is being developed now would include a 
territorial storage facility that would house the Park 
Service's collection, the collection from the Historical 
Society, and Mr. and Mrs. Bennyhoff have pledged to donate 
their collection to the park as well. But certainly, they won't 
do it unless the standards that they would ascribe to are 
achieved.
    So I am not sure what the interim strategy is. I know we 
continue to monitor our collection and take those safeguards 
that are necessary, but certainly in the long-term, we are not 
meeting the standards that we should.
    Mr. Souder. Well, I really appreciate that the National 
Park Service has worked hard for kind of the last--certainly 4 
or 5 years to get the first standards of how you make these 
kind of decisions, evaluation of the inventory structures, 
starting to make some kind of baby steps to, pulling together 
clusters like Lewis and Clark, like the Lincoln Cemetary, like 
Civil War battlefields have always been actually a step ahead 
because the private sector has been so active.
    Mr. McIntosh. Right.
    Mr. Souder. They need this in the Revolutionary War; we 
need it for the other major developmental periods of the United 
States. As someone who sat on park hearing after park hearing 
where we move many relatively obscure but regionally important 
or even State important sites into the Federal system----
    Mr. McIntosh. Right.
    Mr. Souder [continuing]. And then have a blind eye when 
formative documents are being destroyed that are foundational 
to our republic----
    Mr. McIntosh. Right.
    Mr. Souder [continuing]. Where we have cities and towns 
across America named after the individuals and where we 
wouldn't even have all the other here if we didn't have those 
foundational principles. That somehow there needs to be a 
hierarchical ranking inside the system of primary importance 
versus kind of mid-tier versus things that are regionally 
important. And how that regional story fits into the national 
story is important----
    Mr. McIntosh. Right.
    Mr. Souder [continuing]. But not if the national story 
falls apart. And somehow we have to have some of that kind of 
effort.
    Mr. McIntosh. I should add a thought that came to my mind 
while you were speaking. Thanks to Congressman Frelinghuysen of 
New Jersey, we were able to achieve in the 2004 budget, I 
think, approximately $3\1/2\ million for the rehabilitation of 
the museum at Morristown National Historical Park, which is 
significant because it houses that park's collection, which was 
definitely in peril.
    Mr. Souder. I am a little more sensitive than others 
because those of us in the Great Lakes area basically came 
right after the formation of the American Republic, and when I 
see these different things that are at Valley Forge or in some 
of the Revolutionary War period, and I come from the town of 
Ft. Wayne, which is named after Anthony Wayne. I have--Hamilton 
is a town in my district, Steuben County is in my district, De 
Kalb County is in my district. The map reads like Valley Forge 
and the Revolutionary War----
    Mr. McIntosh. Right.
    Mr. Souder [continuing]. Section, and if you lose kind of 
the foundational things, they are gone. Mr. Platts, do you have 
additional questions?
    Mr. Platts. Just a brief comment. As a native of York, PA, 
the first capital as those of us in York claim with the 
Articles of Confederation having been signed there, the first 
official document uniting us all, your focus on the 
Revolutionary War history is one that is, well, appreciated by 
those of us here in the 19th District--and those collections--
whether they be the collections here at Gettysburg or the 
Revolutionary War.
    My request is that you take back a message, really, to the 
Central Office, because there are a lot of issues in Washington 
that are politicized to a great degree of republican versus 
democrat. The National Park Service, I believe, is one that has 
well embraced the importance of it by all Members of the House 
and less politicized I would hope.
    But what is important--because we are pushing you and what 
you are, you know, representing service and what--you are 
generating funds for Gettysburg or Independence and all the 
different sites, but the more frank the Park Service is with 
Congress in the needs and the examples--some of the examples, 
because we are lucky here today to have a chairman who has such 
a passion about these issues and a knowledge. That is not the 
case with every Member of Congress. But when they hear examples 
of these collections of our Founding Fathers that are at risk 
and being lost, not just at risk but have been lost, that is 
going to hit home.
    So my request is that you encourage the Central Office to 
be very frank, and say yes, we have increased funds in past 
years, but here is what that really means: we lost staff. We 
have more for capital investment, but here is what we didn't 
preserve because of not acting quickly enough. The more frank 
the Park Service is with Congress in total, especially 
Appropriations hearings, you know, the more beneficial it would 
be to our shared mission here and doing right by the Park 
Service and all of its assets. Thank you, Mr. Chairman.
    Mr. McIntosh. Thank you.
    Mr. Souder. Thank you. Thank you for your testimony, and we 
will be following up with some additional questions. But I gave 
you a few that would be very helpful.
    Mr. McIntosh. Good, thank you.
    Mr. Souder. Thank you. If the second panel could now start 
to make their way to the stage, the Honorable Richard 
Thornburgh, former Governor and attorney general who is 
representing the Gettysburg National Battlefield Museum 
Foundation; David Booz, Friends of the National Parks at 
Gettysburg; Joy Oakes, Director of the National Parks 
Conservation Association; O. James Lighthizer, Civil War 
Preservation Trust. Now that everybody is seated, we will have 
you stand again for the oath. Will you each stand and raise 
your right hands?
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
responded in the affirmative. Thank you. I will wait a second. 
We are moving a little fast, and I want to make sure we get the 
pictures for the new Visitor Center there for the Governor's 
testimony. We thank each of you for coming today. This is a 
unique opportunity.
    I know for the NPCA testimony, we will cover more of the 
whole region, but a great opportunity to look at Gettysburg is 
kind of the keystone of the Civil War battlefield.
    And then I will also look at the area where we have, at 
least thematically, driven by the outside, started to look at 
the Park Service as a--looking at a theme as a whole.
    So first, we will start with Governor Thornburgh. Thank you 
for coming today.

  STATEMENTS OF RICHARD THORNBURGH, PRESIDENT, THE GETTYSBURG 
NATIONAL BATTLEFIELD MUSEUM FOUNDATION; DAVID BOOZ, FRIENDS OF 
THE NATIONAL PARKS AT GETTYSBURG; JOY OAKES, DIRECTOR, NATIONAL 
PARKS CONSERVATION ASSOCIATION; AND JAMES LIGHTHIZER, CIVIL WAR 
                       PRESERVATION TRUST

                STATEMENT OF RICHARD THORNBURGH

    Mr. Thornburgh. Thank you, Mr. Chairman. Thank you very 
much for your attention to this very significant challenge that 
we face in our country. I am particularly pleased that you are 
accompanied by Congressman Platts, a fellow alumnus of 
Pennsylvania State government.
    My name is Dick Thornburgh. I am the former Governor of 
Pennsylvania with a long-time interest in preserving our 
historic heritage. I appear today as a member of the Board of 
Directors of the Gettysburg National Battlefield Museum 
Foundation. A copy of my biography is attached to my written 
testimony, which I ask be made part of the printed record.
    With me today is Bob Wilburn, president of the Foundation.
    In his Gettysburg Address Abraham Lincoln talked of a new 
birth of freedom. I want to thank you for the opportunity to 
appear before you today on behalf of the Gettysburg Museum 
Foundation to discuss our partnership with the Gettysburg 
National Military Park in what I believe is a once-in-a-
lifetime opportunity for a new birth for Gettysburg.
    This subcommittee is familiar with the challenges that 
confront the Gettysburg National Military Park. Today I would 
like to spend my time here reviewing our partnership with the 
National Park Service, our progress, and how our efforts can 
help address the park's financial needs.
    First, let me tell you of some of the goals we plan to 
accomplish through out partnership with Gettysburg National 
Military Park. First, we want people to have a rewarding 
experience, to stir their emotions, and imagine what it was 
like for the soldiers who battled on Gettysburg's fields and 
hills in those first days of July in 1863. Second, we want 
people to leave Gettysburg with a deeper, more lasting 
appreciation of what exactly happened here. Third, we want to 
create a connection with the events of 1863 and to extend that 
connection to the community, its architecture, its history, and 
its people.
    To accomplish these goals we are seeking to raise a total 
of $95 million to restore and preserve this national treasure 
for future generations. Together with the dedicated staff at 
Gettysburg National Military Park, we will provide the American 
people with a new, state-of-the-art Museum and Visitor Center, 
we will ensure high quality interpretation and educational 
opportunities, restore and fully protect the historic 
Gettysburg Cyclorama painting, protect and provide for proper 
display of the artifact and archival collection, and return 
significant portions of the Battlefield now paved over and 
covered with buildings as closely as possible to their state 
during the battle in 1863.
    Through our partnership we have the opportunity to 
accomplish something that the National Park Service would 
likely never be able to do on its own. As partners, we can 
provide the time, the resources, and the talent that ensures 
the Gettysburg experience reaches its full potential.
    I might say that the Foundation considers it a genuine 
privilege to play a role in providing for the future of this 
historic site.
    That is our vision. And now a brief report on our progress. 
In January 2002 the Foundation released the conceptual design 
for the new Gettysburg Museum and Visitor Center. The new 
building will showcase the battlefield, invite visitors to walk 
the land and more easily appreciate the significance of what 
happened here.
    Teams from the Foundation, the National Park Service, our 
Advisory Committee of distinguished historians, licensed 
battlefield guides, and exhibit design consultants have 
developed plans for the museum's main exhibit galleries, which 
we organized to help visitors understand and appreciate three 
major themes. First, the unfinished work of the Declaration of 
Independence, the causes of the Civil War, and the war itself 
until June 1863. Second, the actual battle and campaign of 
Gettysburg, which will comprise about 2/3 of the exhibit 
galleries. Third, the Gettysburg Address and the Civil War from 
Gettysburg to Appomattox, reconciliation, and the consequences 
of the war.
    In addition to the new Museum and Visitor Center, the 
partnership is designed to enhance roads and infrastructure, 
acquire land, restore the Gettysburg Cyclorama painting, 
rehabilitate historic landscapes, preserve and enhance display 
of the park's collection of Civil War artifacts, and equip and 
furnish the new facilities. The Museum Foundation will operate 
the new Museum and Visitor Center and after 20 years will 
donate the land, building, and facilities to the Park Service.
    In this regard I should note, in light of the 
subcommittee's legitimate interest in the financial needs of 
the park, that this partnership's objectives will do more than 
provide necessary funding to address significant infrastructure 
needs of the park.
    Since the Museum Foundation will operate at its own 
expense, the new Museum and Visitor Center for the Park Service 
for a period of 20 years, the Foundation also will alleviate 
any additional operating costs the park would otherwise have 
incurred.
    Of our $95-million campaign goal, $68.3 million represents 
the cost to design and build the new Museum and Visitor Center, 
including museum exhibits and restoration of the Gettysburg 
Cyclorama painting.
    Last year the foundation announced that we wanted to have 
in hand $75 million in funding commitments before we actually 
broke ground. This would ensure that we have sufficient funds 
to complete the new facilities, while at the same time 
accounting for gifts and expenses that support the overall 
project, but not necessarily the Museum and Visitor Center 
component.
    As of today, I am pleased to report that the Foundation has 
identified $69.4 million toward our $75-million goal, and we 
will break ground on the new facility on June 2 of this year. 
Of the total, 17 percent--$11.9 million--has been appropriated 
by the Congress; 29 percent--$20\1/2\ million--comes from the 
Commonwealth of Pennsylvania, which is investing in the project 
through its Capital Assistance Program. The remaining 54 
percent--$37 million--comes from the private sector with $12 
million of that to be borrowed from commercial lenders, and the 
remainder already in hand or pledged from private foundations, 
corporations, and individuals. Our partnership with Gettysburg 
National Military Park is an opportunity to help the park 
address its infrastructure needs and to put in place funding 
sources that will alleviate future expenses the park will 
incur.
    But more than that, we consider this effort the opportunity 
of a lifetime to build something of lasting significance. By 
bringing to light the experiences of 1863, we can help 
Americans better see the links between the struggles of the 
Civil War and the challenges we face today.
    Nearly 142 years ago, President Lincoln came to Gettysburg 
to honor the dead. On that occasion in his Address, he urged 
Americans to be dedicated here to the unfinished work of 
freedom and democracy. Preserving the battlefield at Gettysburg 
and making it a classroom of democracy is certainly one way to 
advance to unfinished work that Abraham Lincoln laid before us.
    Thank you very much for the opportunity to be here today.
    [The prepared statement of Mr. Thornburgh follows:]

    [GRAPHIC] [TIFF OMITTED] T3039.009
    
    [GRAPHIC] [TIFF OMITTED] T3039.010
    
    [GRAPHIC] [TIFF OMITTED] T3039.011
    
    [GRAPHIC] [TIFF OMITTED] T3039.012
    
    [GRAPHIC] [TIFF OMITTED] T3039.013
    
    [GRAPHIC] [TIFF OMITTED] T3039.014
    
    [GRAPHIC] [TIFF OMITTED] T3039.015
    
    Mr. Souder. Thank you very much. Mr. Booz.

                   STATEMENT OF DAVID T. BOOZ

    Mr. Booz. Thank you, Chairman Souder and Congressman 
Platts, for this privilege to speak with you today. My name is 
Dave Booz, and I am the executive director of the Friends of 
the National Parks at Gettysburg. We work hand-in-hand with the 
park. Our job is to help supplement and support the operational 
needs of the national parks at Gettysburg.
    Earlier in some of the comments Congressman Platts made 
questioned the efforts and the everyday routines. Much of our 
work goes a long way to helping with interpretation and 
understanding of the visitors when they come here.
    We believe this to be hallowed ground. We believe this to 
be a place where the souls of thousands of people have gone 
through a great struggle, and it is our job, our duty, and our 
sacred trust to honor that struggle.
    As we all know, this battlefield is a place where over a 
million people come every year. Our mission, the Friends of the 
National Parks at Gettysburg, is to honor, support, protect, 
and enhance the resources associated with that site. To that 
end we have given over $6 million to the national parks and 
more than 15,000 volunteer hours. The vast bulk of that service 
has come since 1994.
    We greatly appreciate Dr. Latschar's comments when he says 
that the Friends are the margin of survival for the park. And 
our efforts continue to make sure that people come to this park 
and get a first-class interpretation and experience.
    We have done a great deal to paint fences, barns, sheds, 
build fences, things that are very visible to visitors once 
they understand the battlefield. If you go across this 
battlefield and you see a white fence, it has been painted by 
the Friends. Headstones in the cemeteries, you know, we sort of 
think they are there forever, but Congressman Souder, as you 
pointed out, these artifacts, these treasures disappear very 
easily, and we have done a great deal in repairing and working 
with those.
    The peach orchard, as was mentioned earlier, well, when you 
think of Gettysburg, the peach orchard is always Sherfy's Peach 
Orchard, but there were a number of peach orchards here in 
1863. We have donated trees to the parks so that these peach 
orchards can be maintained. The peach orchard will be reworked, 
I believe, starting in October, and our membership is donating 
the money to buy the trees so that the new Sherfy Peach Orchard 
will be a place that really does represent 1863.
    We have been involved in land preservation. We have worked 
in partnership with the National Park Service and its excellent 
staff to try to identify and purchase and then donate land to 
the parks. Over the time that we have been here, over 400 acres 
have been donated to the parks.
    One of the ones that we are most proud of was the Home 
Sweet Home Motel, which was right on the edge of the Pickett's 
Charge field along Emmitsburg Road. This structure in 
partnerships with other organizations was purchased and then 
cleared and donated to the park. If you were here at a time 
when the motel was here and look at it now, I believe you can 
see a great improvement.
    The first shot marker, which many people weren't even aware 
of, we were able to see to it that was preserved and brought 
into the National Park Service.
    We can go through a large number of plots of land, but I 
think the important point is that, as a private institution, we 
have tried our best to support the park. Even now we are in the 
process of donating a 9.3-acre parcel of land to the park.
    We have worked extensively with monument rehabilitation. 
The Pennsylvania Monument, which is one of the largest and most 
famous on this battlefield and I believe any, underwent almost 
a $2-million rehabilitation effort, and we were instrumental in 
leading that.
    The cannons that are on the park, well, there are over 400, 
and for years they were never maintained because the money just 
wasn't there. We rent a facility and provide volunteer hours to 
rehabilitate those cannons. And if you ever have a chance to 
visit the cannon shop and go through that process, believe me, 
you will come away amazed. It is 144 hours on each carriage 
after it has been sandblasted. So the gentlemen who worked that 
particular project do a fantastic job. Unfortunately, once 
those cannons are back onto the field, they must be maintained 
again. So we have a new problem that we are pleased to deal 
with.
    We also have worked with other monuments on the field, and 
unfortunately, sometimes monuments are damaged. So we are 
active in trying to support the efforts of the park police and 
the local police agencies in apprehending the criminals.
    Education is a major part of our job as well as the 
National Park Service. And we have, at the Rupp House, a 
history center in which we present an interpretation of this 
battle and what it did to the community. We believe that is 
extremely important.
    We also sponsor seminars and conferences so that people 
will better understand what happened here, the actual battle as 
well as the ramifications. Often people think that everything 
ended on July 3rd, and that is grossly untrue.
    We support a number of programs that the park has, such as 
the Military Park ``sleepovers'' and the Junior Ranger Program. 
We have a Traveling Trunk Program where we send trunks filled 
with reproduction artifacts across this Nation so that people 
can better appreciate the life of the everyday soldier and 
civilian.
    One of the things that we are most proud of is that we were 
able to help, along with a number of other organizations, in 
burying the utility lines along the Emmitsburg Road and the 
Mummasburg Road. These lines were definitely a blight on the 
scene, and through a large number of people's efforts, we were 
able to have those buried. The National Tower, which I know 
that you are familiar with, was demolished, and we had a hand 
in that along with others.
    I could go on for a long time; however, what I think the 
important part is we spend a great deal of effort helping to 
provide the operational needs of this park. Dr. Latschar and 
his staff do a superb job. I am amazed at the dedication and 
the professionalism of these people.
    The Friends of the National Parks have that same kind of 
dedication and interest to make this place into a place where 
people come and never forget. We work with the town; we work 
with the park to try to make an experience that we all can be 
proud of.
    Sir, we thank you very much for your efforts because what 
you are doing is absolutely essential in the success of the 
Park Service and in preserving our heritage. I know that if you 
would spend time--if you could have the luxury of spending time 
here on this hallowed ground, before long you would have the 
feeling of many ghosts--and not ghost tours--but the 
experiences of the past and understand completely how much this 
means to the United States. So thank you for your efforts, 
sirs.
    [The prepared statement of Mr. Booz follows:]

    [GRAPHIC] [TIFF OMITTED] T3039.016
    
    [GRAPHIC] [TIFF OMITTED] T3039.017
    
    [GRAPHIC] [TIFF OMITTED] T3039.018
    
    [GRAPHIC] [TIFF OMITTED] T3039.019
    
    [GRAPHIC] [TIFF OMITTED] T3039.020
    
    [GRAPHIC] [TIFF OMITTED] T3039.021
    
    Mr. Souder. Thank you very much, Mr. Booz. I will go to Ms. 
Oakes.

                   STATEMENT OF JOY M. OAKES

    Ms. Oakes. Mr. Chairman and Mr. Platts, thank you for the 
opportunity to speak before you today. I am Joy Oakes; I am the 
mid-Atlantic Regional Director of the National Parks 
Conservation Association. Since 1919, the nonpartisan NPCA has 
been the leading voice of the American public speaking out on 
behalf of America's National Park System. I will briefly 
summarize my remarks and ask that the entirety be included in 
the record.
    Our 300,000 members nationwide thank you for holding these 
extraordinary hearings and oversight hearing on the critical 
and chronic funding needs of the National Park System. It is 
extraordinary. Thank you so much. And for your leadership on 
the Centennial Act, working with a bipartisan group of your 
colleagues to address the maintenance needs in the national 
parks.
    Americans from all walks of life and from the spectrum of 
political belief can and are rallying around the cause of 
protecting, restoring, and fully funding America's national 
parks. Approximately one of every five national parks are right 
here in the mid-Atlantic. Many are icons of America's democracy 
like Independence, Valley Forge, Gettysburg, of course. Others 
preserve ancient geology, rich biodiversity, spectacular 
landscapes, and endangered species.
    And as we have heard, parks are living classrooms. I 
brought my fifth-grader here to Eisenhower last year when he 
was doing the report on the President, and walking through the 
sunroom where President and Mrs. Eisenhower entertained Nikita 
Khrushchev and other cold war leaders and gazing at that rural 
landscape that the President painted from that very sunroom, 
made the Eisenhowers and their times come alive in a way that 
is very difficult, even in the best of textbooks, to 
understand.
    My remarks will focus on how this $600-million annual 
operation shortfall, the enormous maintenance backlog, and the 
scarcity of lands money place out in the national treasures in 
this region.
    Here we are at Gettysburg, the world's classroom on the 
American Civil War. This park has 63 cents for every dollar it 
needs for day-to-day operations, reasonable, routine 
maintenance, resource protection, interpretation, law 
enforcement. The world's classroom on the Civil War holds a 
lottery every September to determine which of the requests for 
ranger-led tours it will respond to from school groups. And 
last year, one out of every four requests were denied.
    While the park's budget has, in fact, increased in absolute 
dollars, as we have heard, over the last few years, since 
fiscal year 2002, their purchasing power has actually declined. 
And you can see that in the additional loss of staff positions, 
19 FTE's just in the last 3 years. Two of those include the 
maintenance specialist on the cannon restoration, making the 
Friends' volunteer work even more important.
    Despite the maintenance and project money that has been 
talked about, the maintenance backlog here at the park actually 
grew in the last few years. Gettysburg saw a decrease in its 
purchasing power in fiscal year 2005 of more than $60,000 
despite the admirable efforts the Congress made to try to get 
additional funding, and actually getting absolute dollars to 
the parks, their purchasing power declined. This decrease in 
purchasing power is a result of a number of unfunded mandates, 
which has been discussed today.
    The last time Gettysburg received land acquisition funding 
was fiscal year 2001. And this despite about 20 percent of the 
land inside the park's designated boundary is owned by others. 
Just in the last few months, two inholders have approached the 
park asking if they are interested in talking about selling. 
But the park has been unable to respond because there is no 
money in their land acquisition account for this park.
    With 80 other parks in the region, I should talk about a 
few of the others very quickly. Shenandoah National Park also 
did a business plan just as Gettysburg has done. Their analysis 
is very similar. That park has 65 cents for every dollar it 
needs for routine operations. Of particular concern, Shenandoah 
has employed the budget cost projection model that the Park 
Service is using to assess what its purchasing power will be in 
future years. And that analysis, through fiscal year 2009, 
shows that, in fact, appropriated moneys should continue to 
increase in absolute dollars, but the budget gap at Shenandoah 
is predicted to continue to increase also to the tune of $2.6 
million. Shenandoah is one of the most polluted parks in the 
country, yet it has left open its air resources specialist 
positions since 2003 due to tight budgets.
    Delaware Water Gap recreation area in New Jersey and 
Pennsylvania is a four-season recreational park with a two-
season budget. Its business plan analysis showed the park has 
56 cents for every dollar it needs for annual operations. Its 
staff collectively drive about 800,000 miles each year in 
vehicles that are almost 14 years old on average on roads that 
are in some of the worst condition of any parks in the 
Northeast region of the Park Service.
    George Washington Birthplace in Virginia: Congress expanded 
the boundary 2 years ago in order to include privately owned 
land at the agreement of the owner, land that is surrounded by 
the park and the Potomac River. It is a hole in the donut, and 
yet it hasn't gotten the lands money to be able to make a deal. 
And so now that land is on the commercial real estate market. I 
was just looking at the listing actually.
    A high profile battle at Valley Forge in recent years 
concerning the Waggonseller farm really shows--is a great 
illustration of just how critical the lands money is here in 
the mid-Atlantic. Development is knocking at the doors of these 
parks.
    Throughout the region and throughout the system, you can 
find countless examples of extraordinary leadership and 
dedicated, mission-driven staff, who leveraged limited 
resources to get the job done. At Petersburg Military 
Battlefield in Virginia, that staff leveraged $8,000 in fees to 
accomplish a $30,000 restoration of the Dictator, the largest 
weapon used in the siege and defense of Petersburg. And they 
did a very nice job.
    But even the best elastic can only stretch so far. Even 
with all the creative thinking, the strategies for revenue 
enhancement, the leveraging, the partnering you have heard 
about, the volunteering, big gaps remain. And Gettysburg is one 
of many poster children. Even with two of the most effective 
Friends groups in the region and possibly in the country with 
skilled fiscal managers, they have a long list of park needs.
    More and more Friends groups are providing and philanthropy 
is providing not the margin of excellence for our national 
parks, but the margin of survival. And that itself may not be 
sustainable.
    In closing, we would like to thank you for this 
unprecedented series of hearings that you are holding, for your 
leadership on the Centennial Act. We hope your colleagues will 
allow Americans to donate all or some of our tax refunds to 
invest in our national heritage. We also hope your colleagues 
will approve an increase in the annual operations budget for 
the parks, $100 million more than what the President's budget 
has proposed. We hope you will be generous, that your 
colleagues will generous in providing lands funding. Nothing 
less is at stake than the future of our national parks. Thank 
you.
    [The prepared statement of Ms. Oakes follows:]

    [GRAPHIC] [TIFF OMITTED] T3039.022
    
    [GRAPHIC] [TIFF OMITTED] T3039.023
    
    [GRAPHIC] [TIFF OMITTED] T3039.024
    
    [GRAPHIC] [TIFF OMITTED] T3039.025
    
    [GRAPHIC] [TIFF OMITTED] T3039.026
    
    [GRAPHIC] [TIFF OMITTED] T3039.027
    
    [GRAPHIC] [TIFF OMITTED] T3039.028
    
    [GRAPHIC] [TIFF OMITTED] T3039.029
    
    [GRAPHIC] [TIFF OMITTED] T3039.030
    
    [GRAPHIC] [TIFF OMITTED] T3039.031
    
    [GRAPHIC] [TIFF OMITTED] T3039.032
    
    [GRAPHIC] [TIFF OMITTED] T3039.033
    
    [GRAPHIC] [TIFF OMITTED] T3039.034
    
    [GRAPHIC] [TIFF OMITTED] T3039.035
    
    [GRAPHIC] [TIFF OMITTED] T3039.036
    
    [GRAPHIC] [TIFF OMITTED] T3039.037
    
    [GRAPHIC] [TIFF OMITTED] T3039.038
    
    [GRAPHIC] [TIFF OMITTED] T3039.039
    
    Mr. Souder. Thank you very much for your testimony. Our 
clean-up witness is Mr. Lighthizer. Thank you for coming.

                 STATEMENT OF JAMES LIGHTHIZER

    Mr. Lighthizer. Mr. Chairman, good to see you again, 
Congressman Platts. My name is Jim Lighthizer; I am president 
of something called the Civil War Preservation Trust. It is an 
organization of some 70,000 members nationwide. We are non-
profit. And we have as our primary mission to preserve as much 
important and significant Civil War battlefield land that is 
unprotected in the time remaining with the emphasis on 
important Civil War land, which is documented, and in the time 
remaining, recognizing that this will be the last generation 
that will have any real opportunity to preserve that part of 
our national heritage.
    It gets interesting, gentlemen, that probably the first 
effort to preserve Civil War battlefield land was done right 
here. I think it was 1864 when a private individual from this 
community bought some land along Cemetery Ridge, and, of 
course, it expanded from there. And later the Commonwealth of 
Pennsylvania bought some land for the cemetery. So it, in a 
sense, the battlefield preservation movement started right here 
over 140 years ago. And the Civil War Preservation Trust 
continues that tradition in the sense that the private sector 
is vitally involved.
    Now, our organization, which is the product of a merger in 
1999, has saved about 15,000 acres around the country of Civil 
War battlefield land. That land is land that has been 
identified through a Congressional Civil War Studies Advisory 
Commission Report, which was done in 1993, commissioned by the 
Congress in 1990. And it identified 384 battles around the 
country that were ``determinative of the outcome of the 
conflict.'' The vast majority of that land is not within the 
confines of the National Park Service boundaries, as you 
gentlemen well know. And, in fact, speaking of the boundaries, 
of course, the first movement started with individuals to save 
battlefields.
    In 1895 the Congress created the Battlefield of 
Chickamauga, which was the first wholesale purchase of land on 
a battlefield. After that, I believe, came Antietam and then 
Gettysburg, all in the 1890's. In the 1920's and 1930's the 
U.S. Government got serious again about saving battlefields, 
places around Spotsylvania and Chancellorsville and other very 
significant areas.
    But, interestingly enough, they developed a plan of 
preservation that involved, in part--it is called the Antietam 
Plan, and what it did was--they only bought land around 
monuments and around areas that they deemed important, for 
example, trenches at Chancellorsville and the Wilderness. And 
right now those trenches are preserved, but about 6 feet on 
either side is still in the private sector. And, of course, the 
thinking was back then that the land would never be developed. 
It would always remain woodland or rural or farmland. And that 
was true for about 50 years or so, and then in the 1980's it 
all changed.
    And what you see now--and Mr. Chairman, I believe you are a 
student of the war and I am sure you have been to battlefields. 
As you can see trenches in the Wilderness with 4 feet away you 
can see a sandbox and a swing set because it is the backyard of 
somebody's house, which certainly does detract, if not 
denigrate, what happened there because men fought and died for 
reasons that were very, very important to them and our country.
    So that land, as well intentioned as it was 60 or 70 years 
ago, simply is not helpful today. And while the U.S. 
Government, through the National Park Service, has purchased 
land and continues to purchase land, it is nowhere near keeping 
up with the pressure of development.
    Now, we have estimated that there is a maximum of 20 years 
left to save the important land. And I am not just talking 
about anything that had something to do with the Civil War, but 
significant core battlefield land. And if you look at places 
like Virginia, around Richmond or Fredericksburg or the Valley, 
that timeframe is really more in months. It is no more than 4 
or 5 years. And then the issue is going to be decided. And it 
is not going to be decided as to cost. It will either be saved 
or paved over, one or the other. And it is a general 
proposition, and there are one or two notable exceptions, but 
as a general proposition, once the land is developed, it is 
gone forever. And the opportunity to save it and gain a full 
appreciation of our heritage is gone forever. So we are really 
in a race against time.
    The Congress in 1999, to their credit, through by the way 
the use of an earmark created a program that funds something 
called the American Battlefield Protection Program, which is a 
small unit of the Park Service. And what it does is provide 
money to groups like myself can compete for, and it provides at 
least a 50/50 match. In other words, for every Federal dollar 
in this fund, 50 percent has to be raised from somewhere else, 
non-Federal money.
    Over the last 5 years approximately $26 million have been 
appropriated and about $20 million has been obligated. But what 
that fund has done--and I invite your comparison, gentlemen--
that fund has saved over 13,000 acres of land outside of the 
National Park Service boundaries. Now, if you do the math, that 
is about $1,500 or $1,600 an acre of Federal Government money. 
Compare that to Stuart Hill, which in 1988--it is a little bit 
before your gentlemen's time--but was a highly controversial 
land development that was about 550 acres at Manassas, 
extremely important ground. A developer was going to pave it 
over for a shopping center, and the Congress did a 
congressional taking--very unusual. But it cost over $120 
million or $220,000 an acre. Now, I know you gentlemen agree 
that not even the U.S. Government can afford that kind of 
significant or continuous expenditure of moneys for land.
    So my point is the Land and Water Conservation Fund that 
Congress created by the way and that President Bush, to his 
credit, has included in his budget the last 2 years, has saved 
a significant amount of ground for a very reasonable price--
historic ground. And that effort, with the support of the 
Congress hopefully will continue.
    And by the way, just as an aside, the $20 million that has 
been obligated, $1 million of that went to fight forest fires 
out west. So it is really $19 million. But I digress just a 
little bit.
    Let me just conclude, gentlemen, by saying this: that I 
hope that you all in the National Park Service will look inward 
as well as outward when it comes to funding that part of our 
national heritage. Certainly, the money is needed to buy land 
within the Park Service boundaries, as Joy mentioned. But there 
is also a great deal of land outside of the boundaries that is 
just as important, just as significant, just as hallow that the 
Civil War Preservation Trust, a private group, is saving in 
partnership with the U.S. Government.
    Once again let me just compliment both you gentlemen for 
having the interest and caring in bringing the focus on this 
overall very important subject. Thank you.
    [The prepared statement of Mr. Lighthizer follows:]

    [GRAPHIC] [TIFF OMITTED] T3039.040
    
    [GRAPHIC] [TIFF OMITTED] T3039.041
    
    [GRAPHIC] [TIFF OMITTED] T3039.042
    
    [GRAPHIC] [TIFF OMITTED] T3039.043
    
    [GRAPHIC] [TIFF OMITTED] T3039.044
    
    Mr. Souder. Thank you very much for your testimony. Mr. 
Platts, before we scheduled this hearing, had a commitment that 
he had made, so I am going to yield to him first so he can do 
his questioning.
    Mr. Platts. Thank you, Mr. Chairman. I unfortunately won't 
have the time to get into questions. I have a veterans group at 
noon in York that I committed to address some veterans' issues 
and do have to run to keep that appointment.
    But I want to first just thank each of you and through your 
respective organizations for your tremendous work. Specific to 
here at Gettysburg were two organizations and then in a broad 
sense to all of our parks out there and to the Civil War in 
particular and with the Preservation Trust. I hate to think of 
where we would be but for each of your organization's efforts, 
both in dollars and volunteer hours and public awareness of the 
challenges.
    And each of you gave important testimony, and Ms. Oakes, 
your frank assessment of Gettysburg in particular and then in a 
broad sense is what we need to hear. And, you know, to Mr. 
McIntosh, that was my message I hope he takes back because 
Congress needs to hear these frank examples. When you hear one 
out of four school groups not being able to get--you know, and 
because that is what we want to encourage, that experience.
    The purchasing power as we talked about with Mr. McIntosh, 
53 cents on the dollar here at Gettysburg, 57 cents--your 
example of the 14-year-old vehicle, when I was at Lexington in 
Concord in driving with the superintendent there, I think it 
was about a 20-year-old vehicle, and I think a Dodge K-car or 
something. I wasn't so sure about the safety of the vehicle as 
we traveled.
    But the one that hit me especially was your example of your 
fifth-grade son and you standing in the sunroom, two summers 
back we were--my kids had the pleasure--by good timing we were 
at Ft. McHenry on my wife's birthday. To celebrate her birthday 
we visited Ft. McHenry, and my kids got to lower the flag with 
20 other guests there. It was, you know, the huge flag--and to 
participate in that lowering and folding of the flag. A month 
later we were at Ft. Clatsop and had the privilege in there 
because of a very small crowd at the closing, my son and 
daughter got to help lower and fold the flag at Ft. Clatsop and 
understand some of the history of Lewis and Clark.
    That is what this is all about, is our children getting to 
experience the history and the beauty of our Nation. And each 
of your organizations is doing a great job. Here at Gettysburg, 
Governor Thornburgh with the Foundation and with the Friends 
working hand-in-hand, what we will have in the years to come--
as one who grew up not far from here in York, my parents were 
very wise. With five kids they said, where can we go where 
there is lots of open space where the kids can learn and maybe 
give us a little break from the noise of five kids? And 
Gettysburg was the spot we came to regularly.
    The first time--my mother-in-law is from Buffalo--was in 
the area, and I was excited and brought her over here to 
Gettysburg. And we went into the Visitor Center about 10 years 
ago, and I was excited for her to experience the Visitor Center 
and the Electric Map. My emotional tie to the Electric Map 
growing up here was little different than her experiencing what 
she expected to find at Gettysburg and--as a visitor.
    And the opportunities we will have in the years to come 
when I bring her back when the new Visitor Center is done and 
truly a world-class experience for her and the visitors to come 
will be exceptional. And just really encourage you to go 
forward with your efforts in working with the Park Service and 
look forward to not just that ground-breaking, but ultimately 
that opening.
    I apologize that I need to run and don't have a chance to 
give any questions, but certainly will do my utmost to support 
Chairman Souder in his efforts working with the Park Service 
and each of your organizations in the months and years to come. 
And we hopefully together will achieve success for the future 
generations. So thank you. So, then, thank you, Mr. Chairman. I 
do apologize. I need to run.
    Mr. Souder. Thanks a lot. But first let me say to Mr. 
Thornburgh and Mr. Booz that I wish we had this in every park 
in the United States. I mean, what you have done here is 
extraordinary, and clearly part of our national challenge as we 
lean more on private sector and public sector cooperation is 
that it is easier for Yosemite or Grand Canyon and Gettysburg 
than it is many of the others. That said, it is still hard.
    And I wondered, Governor, if you could maybe for the 
record--let me ask a more directed question rather than at 
first a general question. As we look at the difficulties of the 
public-private partnerships--because clearly if we are going to 
expand and build new Visitor Centers given the fact that we are 
having difficulty covering staffing dollars, given the 
difficulty that we have in inholdings, let alone new purchases, 
but even lands inside the park that could be sold--that visitor 
services are becoming much more difficult.
    One of my first things when I went onto the Parks Committee 
was the process that we were going through with this Visitor 
Center. And I am curious how some of this was resolved. I think 
it is extraordinary design, absolutely beautiful, absolutely 
the model, and I am kind of curious, and if you could talk a 
little bit about how some of this was resolved.
    I remember that one of the criticisms was that moving the 
Visitor Center away from the heart of the battlefield would 
isolate it, and visitors might not get involved in the town and 
how that relates to the transportation questions, the Wills 
House, and other things, and how you see that in relationship.
    Another was that the proposal was to make this public, 
private, and self-funded. At one point it was going to be the 
largest Civil War bookstore and a huge cafeteria. Then Congress 
more or less mandated that those had to be reduced and then 
complained that it wasn't going to be self-funding. Can you 
talk about some of the tradeoffs as to how you work through 
inside the community and the potential competitive pressures; 
at the same time how to make these things financially viable so 
the taxpayers as a whole don't have to do it; and how you put 
together a team to develop a Visitor Center like this.
    Mr. Thornburgh. I would be glad to, Mr. Chairman, but my 
testimony would be secondhand, and I would like to ask Dr. 
Wilburn to deal in detail with your questions since he has been 
right on the firing line. But let me first say how important it 
is, both from the point of view of participation and support, 
that organizations like the Foundation and like the Friends are 
involved in this process of upgrading and refurbishment of this 
important site.
    We have an unprecedented and unique-in-the-world tradition 
of philanthropy and volunteerism in this country. And I think 
the work of the Foundation and the Friends represents the 
finest tradition in that regard in making an important 
contribution to the preservation of our history for future 
generations. And I think both David and I are proud to be part 
of that in terms of Gettysburg. But let me get to the 
question----
    Mr. Souder. And let me--may I say----
    Mr. Thornburgh. Yes.
    Mr. Souder [continuing]. First that having public figures 
like yourself willing to come forth and be part of the 
fundraising effort that many individuals who are history buffs 
may not have the connections or the ability to gain the media 
attention that flow from people like yourself being willing to 
take a leadership role on something like this, and that should 
not be underestimated.
    Mr. Thornburgh. That is very kind.
    Mr. Souder. It has been really interesting for me to kind 
of go from this kind of history buff all of a sudden to a 
public position. But in watching many of the people, when you 
get to be in a public position, let alone a Governor or 
attorney general like yourself, you meet different people and 
can do more matchmaking than the people who necessarily are 
burrowed into the project. And I know that has been critical 
part of this----
    Mr. Thornburgh. Well----
    Mr. Souder [continuing]. You and the other leaderships. So 
don't downplay your----
    Mr. Thornburgh. I hope that is----
    Mr. Souder [continuing]. Role in this.
    Mr. Thornburgh [continuing]. Useful, but my wife refers to 
me as a Gettysburg nut.
    Mr. Souder. Well, good.
    Mr. Thornburgh. So that is----
    Mr. Souder. You are both----
    Mr. Thornburgh [continuing]. Really----
    Mr. Souder [continuing]. Two halves.
    Mr. Thornburgh. That is the real genesis of my interest in 
this.
    Mr. Souder. OK, well----
    Mr. Thornburgh. Bob, why don't you step up to the----
    Mr. Souder. I am going to need to swear you in, so if you 
will raise your right hand.
    [Witness sworn]
    Mr. Souder. Spell both your first and last name for the 
record because the other witnesses all had it in their 
testimony.
    Mr. Wilburn. Robert Wilburn, W-i-l-b-u-r-n.
    Mr. Souder. Now my question was a little bit on the 
evolution that you are well aware of and know what we battle 
through and how you resolve some of those questions as we look 
at other public-private partnerships.
    Mr. Wilburn. And you mentioned specifically some of the 
criticisms or concerns I should say in terms of the interaction 
with the town and moving the Visitor Center some distance from 
town----
    Mr. Souder. And second, on the funding because obviously, 
to pay for operating costs for 20 years, as you are proposing 
to do, you have to have a source of revenue. When you have a 
source of revenue----
    Mr. Wilburn. Right.
    Mr. Souder [continuing]. Is it a zero-sum game or do you 
think there will be a bigger pool of revenue from which to 
pull?
    Mr. Wilburn. Right. OK. OK, first of all, in terms of the 
relationship to the town, I think everybody involved with the 
project is committed to the concept that you can't experience 
the battlefield without experiencing the town and that we want 
to make sure that visitors go to the town. And so I think the 
fact that we are developing at the same the Wills House--not we 
as a foundation, but the Park Service and the community is 
developing the Wills House and the train station--is going to 
add to this flow of visitors between the town and the Visitor 
Center.
    The Visitor Center is only moving about a half a mile from 
the current site. So it is not being moved that far away. Also 
important to this is the shuttle system that we are working on 
in trying to make sure that there will be a shuttle system that 
will go between the Visitor Center and the town.
    And then finally, the third thing that we are working on is 
to make sure that there is not development around the Visitor 
Center so that we are not going to create another sort of place 
for visitors to go. And we have been acquiring strategic 
properties and making sure that there would not be development 
along Baltimore Pike.
    So the combination of all those things have, I think--I 
believe that people in town now appreciate the fact that we 
have a real commitment to making sure that visitors experience 
the town, and that it is not becoming an isolated place some 
distance away from town, but rather an integral part of the 
entire experience.
    In terms of the long-term operating cost, the actual--and 
we are convinced--we have done our pro formas--that it will be 
self-financing. We have limited the size of the bookstore and 
we have limited the size of the restaurant facility. But there 
will be some revenues that will come from the restaurant 
facility. There will be revenues that will come from the 
bookstore.
    And, in addition to that, we expect a significantly larger 
amount of revenues coming from attending the film experience 
that will be there as well as the Cyclorama. Co-locating the 
Cyclorama and the film experience together in and of itself is 
going to generate an additional considerable amount of 
revenues, because now, while you have 600,000 people each year, 
for example, go to the Electric Map Program, only half that 
many go to the Cyclorama, and part of that is just the fact 
that they are separate and more difficult to do both. By 
bringing them together, we believe that we are going to 
increase revenues rather sizably, which will also help in the 
financing of the building so--I mean, I am sorry, in the 
financing of the operating costs going forward.
    We are convinced that the operating cost will be 
sufficient, not just to cover the cost of running the facility, 
it will also be sufficient to provide for reserves for the 
building, to make sure that it is maintained in top condition, 
also to have reserves for keeping the exhibits fresh, as well 
as to return not just the funds that are now going from these 
activities to the Park Service that we think will be actually 
additional funds in the future.
    Mr. Souder. Do you foresee, then, at the Visitor Center in 
seeing the operating funds, what kind of management--since you 
are paying the operating, does that not include the rangers 
that are present? What is the interrelationship that you see at 
the Visitor Center?
    Mr. Wilburn. OK. I mean, the rangers would continue to be 
funded, we assume, by----
    Mr. Souder. Yes.
    Mr. Wilburn [continuing]. The Federal Government. We are 
talking about just covering the actual costs of the building.
    Mr. Souder. The maintenance of the building.
    Mr. Wilburn. And the staff that would be necessary to run 
the facility, you know, the maintenance of the facility itself.
    Mr. Souder. So that would be----
    Mr. Wilburn. There is still a significant amount of Federal 
moneys that are necessary----
    Mr. Souder. Right.
    Mr. Wilburn [continuing]. To pay the salaries of the 
rangers and the staff of the National Park Service.
    Mr. Souder. So, for example, where rifles would be stored 
or anything in storage----
    Mr. Wilburn. We would still have curators from the National 
Park Service that would----
    Mr. Souder. But the----
    Mr. Wilburn [continuing]. Be responsible.
    Mr. Souder [continuing]. Cost of the storage facility, 
maintenance, temperature control, for example, would be borne--
--
    Mr. Wilburn. Yes.
    Mr. Souder [continuing]. By the----
    Mr. Wilburn. We would bear that cost, right.
    Mr. Souder. For 20 years?
    Mr. Wilburn. Right.
    Mr. Souder. And that the--is it Eastern National that they 
have the concessionary contract? Or would this now be under the 
Visitor Center or how does that work?
    Mr. Wilburn. At the current time Eastern National has the 
contract for the bookstore.
    Mr. Souder. And would they continue as a--is that a bid 
process or the people who bid the center now would have that 
contract?
    Mr. Wilburn. The agreement with the National Park Service 
gives the Foundation the right to determine who would run the 
bookstore. We are currently having discussions on going with 
Eastern National to see if we can work on agreements acceptable 
to all parties, for them to do it.
    Mr. Souder. And then you would get the percentage of 
revenue that comes from the contract to go toward covering your 
operating?
    Mr. Wilburn. Right, with a couple of conditions that have 
been--as part of the original agreement. As you, I am sure, are 
aware, Gettysburg has been a very successful bookstore 
operation in the past and has provided funds to other parks 
around the country. That has been capped at $420,000 of dollars 
that go from Gettysburg to support other parks. We have agreed 
to continue at that level to provide that support for other 
stores, or other parks. But with that condition and with the 
understanding that the Park Service would continue to get the 
same amount or more income than they currently get from the 
operations, those are the restrictions we have on it.
    Mr. Souder. So the Park Service would continue to get the 
same that they were getting more----
    Mr. Wilburn. Yes.
    Mr. Souder. So you are banking on additional revenues to be 
able to cover that?
    Mr. Wilburn. Yes.
    Mr. Souder. The Governor mentioned that the 17 percent that 
was Federal, which included mostly money for the Cyclorama. Did 
that cover all the Cyclorama cost?
    Mr. Wilburn. The first three appropriations total just 
under $7 million, and those are exclusively for the Cyclorama. 
The last appropriation was for $5 million, which was to cover 
the remaining cost of the Cyclorama painting as well as any 
additional funds were to go to the care of the collections. 
There may be some support for the Cyclorama that comes from 
private sources, but essentially, it is covered in its 
entirety, if necessary, by Federal funds.
    Mr. Souder. So in effect, since the Federal Government paid 
for moving the Cyclorama and the artifacts, they put nothing 
into the actual center itself? Or minimal?
    Mr. Wilburn. Minimal amount into the Visitor Center. There 
will be some addition between the total cost of the Cyclorama 
and the $12 million.
    Mr. Souder. I mean, this is a fascinating case.
    Mr. Wilburn. Right.
    Mr. Souder. Each public-private partnership and visitors 
centers are slightly different. But clearly, as we head this 
direction, Mesa Verde has one of the huge problems in the 
National Park System because they have all these historic 
artifacts in trailers right now for the most part, if they are 
protected at all.
    And they are looking at building a new public-private 
Visitor Center. Should it be on the park land? Should it be 
right outside of the park land? Luna Moore's wife has been one 
of their key fundraisers to try to put this together. Similar 
questions at Valley Forge, how big, how you do the balance, and 
all these tradeoffs.
    Rocky Mountain had a private developer built the Visitor 
Center, which uses a model by the National Park Service. Until 
I went there I couldn't figure out why this person decided to 
do it, but clearly, when you go to find a restroom, you have to 
go through all the eating places and through the gift shops to 
get to the restroom, but hey, it saved the taxpayers millions 
of dollars.
    And we don't have these dollars to put out right now when 
you are talking about, do you give Medicaid to a poor 
individual who doesn't have healthcare? Do you make sure that 
you are safe going to the airport? I mean, these are tough 
budget decisions we are working through right now. In the 
degree we can leverage them the better we can.
    Mr. Wilburn. Sure.
    Mr. Souder. And you are a very interesting model of how to 
do that, and that was why I was trying to get into the----
    Mr. Wilburn. I think that the most important thing that is 
done--and you mentioned it when you talked about Governor 
Thornburgh--is getting the right Board of Directors and the 
right people to be working with you. And I can't stress how 
important it is to have individuals who do open doors for you 
and make it possible to go places where you otherwise couldn't 
go.
    But I would add to that everyone that we have recruited to 
our Board of Directors, without exception, is not only can they 
have access to individuals, but they are totally committed to 
what we are trying to do at Gettysburg. And it is a combination 
of those two things, of having people that care about 
preserving our past and making sure that it is told as 
effectively as it can be told, as well as having the ability to 
bring others sort of into the fold, if you will. Both of those 
things are so important. And we have been very successful.
    Governor Thornburgh also chairs our Nominating Committee 
for our Board of Directors. And I think if you looked at our 
Board of Directors, you would see that we really do have a very 
distinguished group who are not just able to open doors, but 
also care deeply about what we are doing.
    Mr. Souder. We shouldn't neglect to mention the State which 
is a huge partner.
    Mr. Wilburn. Absolutely.
    Mr. Souder. And also Pennsylvania has been a model, because 
at Independence Hall, the Visitor Center for that park----
    Mr. Wilburn. Right.
    Mr. Souder [continuing]. State and city had been involved 
because the other Visitor Center is at a ramp that never came, 
and going to Independence it is always hard to find where the 
Visitor Center is. So there is another example where the State 
put up a lot of dollars. And to a degree, I believe that in 
addition to the prioritization of what is historically 
important, part of it ought to be what is the level of support 
that community has shown, the State has shown----
    Mr. Wilburn. Yes.
    Mr. Souder [continuing]. An ability to do that, because to 
a degree we can leverage these funds if things are relatively 
even in importance. It is a very valuable thing.
    Mr. Booz, one of the debates that you alluded to in a 
couple of places in yours, and without groups like yours, as 
the Friends, I don't know how we would do interpretive-type 
questions and other types of things. A fundamental question 
of--and I would be interested--in the record this relates in 
funding and prioritization and management of parks quite a 
bit--is how you view integrity of battlefield questions.
    This became a big question where the Visitor Center was on 
the angle, and what is ground versus historic structures 
because where the Cyclorama was was a historic structure.
    But I want to get into another question of how much should 
a battlefield look like, and how much of our money should be 
spent to make it look like the battle so that people who come 
can get a sense for the battle.
    How can that be balanced with the question of the vistas 
aren't the same because there is private property up some and 
maybe having trees there makes you feel more like it was the 
battle than if you didn't have the trees blocking, say, this 
swing set next door.
    And in particular, obviously the peach orchard was one of 
the questions here. Vicksburg is a huge question because when 
you go through Vicksburg it is like, well, if you can imagine 
the cannon shot through that group of trees but we wanted to 
preserve the drive--the role of monuments, which is a somewhat 
debated question, although kind of moderated now. Could you 
comment on a few of those questions?
    Mr. Wilburn. Well, they are very good questions. And your 
Vicksburg comment, I agree with you on that one for sure. There 
is a general management plan to restore the battlefield as 
closely as possible to the 1863 existence. And the Friends of 
the National Parks are firmly in agreement with that.
    Currently, a large number of trees have been cut down near 
what we call the Sedgwick Monument if you are familiar with 
that, on the southern end of Big Round Top. And when those 
trees are gone, the interpretation is so much different than it 
was 5, 10, even 50 years ago.
    It is absolutely crucial I believe and the Friends believe 
that we create as realistic as possible of a setting and an 
interpretation for visitors. In order to do that we have to 
have input from virtually every possible source.
    The town, you know, the town of Gettysburg needs to have 
input, the local governments, the State government, and 
National government, people who are interesting in this area. 
The reason being, whatever we do is going to cause controversy. 
So we have to form coalitions to get as much support as 
possible. The money that is needed, quite honestly, has to come 
from a variety of sources.
    We have always felt that we will do our part and then some 
if at all possible to help with that. As a historian and an ex-
history teacher and, you know, background for a long, long time 
trying to convince people of the importance of history and 
correct interpretations, I firmly believe that we need to 
restore this ground.
    The peach orchards, for instance, and I mentioned that 
there were seven of them around this town in 1863. Now we 
cannot knock down half of this college to make it look like it 
did in 1963. And we can't, you know, destroy a large number of 
properties and all that. There has to be reason. There has to 
be logic.
    But once we create a plan, we need to follow through with 
it. And the plan that was created a few years ago is really a 
good one. So I don't know what else I could tell you.
    Mr. Souder. Would you--and I am going ask other witnesses 
as well--maybe you can--Ms. Oakes, Mr. Lighthizer can comment 
on this too--is that when we have a question in a somewhat 
zero-sum game--not appears zero-sum, but a somewhat zero-sum 
game of inholdings, additional purchases, preservation of 
assets and of them looking at this question of trying to get 
the battlefields to look as much like the battlefields, where 
would you put the prioritization?
    And more particular, let me ask this question about the 
inholding question that was raised about Gettysburg. In certain 
places we do these land use questions where we can negotiate a 
50-year land use--this is usually more used in rural settings--
but I am wondering how this can be used in cultural and 
historic parks as well for limited change of the landscape in 
return.
    Is that a way to leverage some of the funds? Has that been 
looked at at Gettysburg? And how do you prioritize these kinds 
of tradeoffs? Because in real dollars Gettysburg has a 
management plan. Other places are developing those. Others 
haven't even--we haven't even added to it.
    So it is more of a philosophical question, how it has been 
resolved at Gettysburg, but you have some questions inside 
Gettysburg as well. What is your advice on something like that? 
And has it been done here, to keep a vista that somebody would 
keep their land and negotiate it for half of the price of what 
it would cost to buy the land? This is what we did with Elkhorn 
Ranch in North Dakota on Teddy Roosevelt's farm.
    Mr. Wilburn. We have tried some things like that and are in 
the process. Some of the programs that the Federal Government 
has where they provide matching funds, they just don't apply 
here because when we are looking for land that is within the 
park boundaries or contiguous to the park, we can't find those 
funds. But we have tried living estates with some folks.
    I think the most crucial point is that we need to pick the 
properties that are going to be the most beneficial to a good 
interpretation and then try to secure them. If you were on the 
first day's battlefield and you looked across that broad field, 
much of it is safe, much of it as close to the 1863 scene as 
possible.
    But there are a few spots that need to be adjusted. If we 
could find programs that would allow either Federal or State 
money to be matched with privately raised money, that would be 
a great help. You have a difficult task, an extremely difficult 
task to weigh all of these issues. We weigh them on a smaller 
scale of simply trying to find the money. We actually need some 
more sources for government funding for places like Gettysburg.
    Mr. Souder. Ms. Oakes, do you have any comments?
    Ms. Oakes. Well, a few thoughts. Having been involved in 
the Toll Brothers controversy at Valley Forge, it is so much 
better if you can make the funding available before the 
rezoning gets done, before the land is platted, because the 
price just goes up. And I am so happy that Congress expanded 
the boundary of Harpers Ferry, this last Congress, and area 
people moved to Jefferson County, West Virginia because they 
can't afford housing prices in metro D.C. and so that is on 
kind of the leading edge of being proactive.
    But some of the land inside the expanded boundary already 
has its perk test done, so we are not ahead of the curve 
entirely there. One place we can get ahead of the curve or at 
least stay even with it is Petersburg where the park has gone 
through a very meticulous analysis of the historic 
significance, the existing integrity of land identified by the 
Commission 10 years ago now, and come up with a very reasonable 
proposal for expanding. My feeling is that, just as been 
mentioned, you put asphalt on it, it is likely gone forever. If 
it is not gone forever, it costs you a lot more to get it back.
    And so taking advantage of those opportunities, being 
proactive, is critical. And also providing funding to take care 
of the assets you have, to fix the leaky roofs. One of the 
maintenance backlog keep growing is because the parks don't 
have the maintenance staff to do the day-to-day maintenance, to 
fix the shingle this year instead of having to fix half the 
roof next year.
    And so that is critical, and that is why expanding the pot 
a little bit through the Centennial Act is so important.
    Mr. Souder. Yes, Mr. Lighthizer.
    Mr. Lighthizer. Yes, Mr. Chairman, you had mentioned 
inholdings. We have land also inside the park boundary that 
isn't necessarily an inholding in the sense that it is not 
surrounded by federally owned property. We do that all the 
time. We have done it at Gettysburg. In fact, Bob will tell you 
we went and bought some property right near where the new 
Visitor Center is proposed to protect it from development, not 
so much because it was historically significant.
    We are talking right now down at Fredericksburg about a 
piece of property that is in the park service boundary that is 
looking in the $6 to $8-million range, real money. And Joy 
mentioned the park boundary extensions. That cuts both ways for 
us because once it becomes part of the--boundary has expanded, 
we can't use that land in water conservation money, as you 
probably know, Mr. Chairman, for purchases inside the 
boundaries.
    So we have to go it alone or we have to find other Federal 
or State money to match it, which is significantly more 
difficult.
    And last, she mentioned Petersburg. Petersburg has 
presently--the current government owns about 2,700 to 2,900 
acres of land. We will buy, outside of their boundaries over a 
6 or 7-year period starting from 3 years ago to about 4 years 
from now, we will buy about that same amount of Petersburg core 
battlefield as the Federal Government presently owns now. The 
Civil War Preservation Trust will. And we will do it largely 
through the Land and Water Conservation Fund, matching money, 
that you all created. But it--we do it all the time.
    I think probably the main mechanism in the county other 
than the National Park Service for buying land within Park 
Service boundaries.
    Mr. Souder. Do you use the easements?
    Mr. Lighthizer. Oh, yes, sir. We use both. In fact, we did 
easements at Fairfield here and in East Calvary Field where we 
used--interesting enough, in Fairfield, the western part of the 
battlefield, the cavalry engagement, we used Farm and Ranchland 
Protection money that the Congress authorized to buy the 
developer rights still in the private sector--private hands.
    Mr. Souder. And how long did the easements generally last?
    Mr. Lighthizer. That is forever.
    Mr. Souder. OK, so that----
    Mr. Lighthizer. Yes.
    Mr. Souder. That is----
    Mr. Lighthizer. That is a long time.
    Mr. Souder. Yes. That generally will work.
    Mr. Lighthizer. Yes.
    Mr. Souder. Because sometimes there are times--it is just 
time-delayed.
    Mr. Lighthizer. Yes.
    Mr. Souder. But the cost varies based on that. And kind of 
if I can go through--I am going to finish with Ms. Oakes on a 
broader question. But in your magazine that listed your most 
endangered sites that I went through last night, you also had 
some that didn't have some detail, and one of those was 
Glorieta, which is the far western battlefield in the Civil 
War, Mr. Lighthizer. Do you know why that was listed in 
particular, Glorieta Pass?
    Mr. Lighthizer. Mr. Chairman, if my memory serves me right, 
I think there is a significant road expansion there.
    Mr. Souder. OK.
    Mr. Lighthizer. That is my recollection.
    Mr. Souder. OK. That is right out of Santa Fe I think.
    Mr. Lighthizer. I haven't been there.
    Mr. Souder. But that was interesting because it was this 
one battle that was the far western battle and also is----
    Mr. Lighthizer. I think it was the last Confederate 
victory, too.
    Mr. Souder. Is it? I think it is part of Pecos National 
Park, which has a mix of different things, but that is a road 
question there predominantly. That in this fund that you use 
for the matches, if it was bigger, would you get more dollars 
to match? Is it predominantly a limitation of--you said there 
are 26 and you have used 20. Is that because you don't have 
enough demand or match dollars, or if the fund was bigger, 
would more be preserved?
    Mr. Lighthizer. If the fund was bigger, we could easily 
match it. Mr. Chairman, the authorization bill is for $10 
million a year over 5 years. And the first year the President 
put $2 million in, the Congress approved it. Last year it was 
$5 million and the Congress approved it. This year it is back 
to $2 million. I am telling you if it was all $10 million every 
year we would easily match it. I absolutely guarantee. And the 
other groups besides us compete for that money. We are not the 
only ones, although we tend to get the lion's share because we 
are the only national group.
    But the answer to your question is that sole limitation is 
what Congress appropriates. If they did $10 million, we would 
do $10 million. We would match it. If they did $15 million, we 
would do $15 million. Because it is a tremendously great 
selling tool to be able to tell a private sector donor or a 
State or a local government, would you like to double your 
money or triple it or quadruple it?
    Mr. Souder. Now it just seems to me from a budget 
standpoint that things that have matches should be sought out 
by us. What are some of the downsides of what that would do in 
a prioritization system? In other words, if we move more 
dollars to matching programs, assume that you are in a relative 
zero-sum game--I am not saying the budget wouldn't go up a 
little, but it is not going to go up as much as you would be by 
moving it--would then you get which battlefields are most 
popular, which are by big metro areas, who has a particular 
wealthy person who is willing to donate to that fund, that 
could distort the preservation of history to some degree, and 
is that not--since a lot of this is value judgment, is that not 
how democracy works to some degree and the government can fill 
it in?
    Could you walk that through what that might do to Civil War 
battlefields if some of the dollars actually went out of--
instead of an increase in the actual what goes to the parks but 
to the land acquisition fund that is matched 50/50.
    Mr. Lighthizer. Yes, I think the Park Service worries about 
that. First, we only buy from willing sellers, so that is 
defined by the free enterprise system and the market.
    Second, with all due respect to the Park Service, we move a 
lot faster. And we don't have the restraints that a government 
has.
    I used to be in government. I was an elected official once, 
and we don't have the constraints that governments have, so we 
can move faster. Sometimes we can get it for a better price. 
There is a lot of things we can do that they can't. I would 
like to think that it wouldn't be a zero-sum game in the sense 
that anything we get, the Park Service wouldn't.
    But certainly, the Congress, who represented, of course, 
the citizens and the taxpayers, is getting a greater bang for 
their buck if they can double their money or triple their money 
or quadruple their money. And that certainly is the case here. 
We have the advantage of the tax laws as a nonprofit. You can 
make a charitable donation for part of the purchase price, as 
you know, and get if off your taxes, whether it is State and 
Federal. And we use those.
    I mean, for every $1 of our member's money, we multiply it 
by seven. And some of it is Land and Water Conservation, some 
of it is the tax law, some of it is State money, but it is a 
huge multiplier. And that is a historic fact, and it is 
documented.
    But I would hope that the National Park Service wouldn't 
look at our gain and leverage and the taxpayer's gain as their 
loss.
    Mr. Souder. And one of the difficult things, as the 
Governor would certainly say, is that while it is not a perfect 
zero-sum game, in fact, the parks gain to some degree means 
somebody may not get a flu shot or a soldier doesn't get an 
armored Hummer as quick. I mean, that is what we have to do is 
decide how much do you put into preservation of things. If they 
are lost, they aren't going to be there. How much do you put 
into the education of a ranger at a park, and we have to figure 
out how to leverage the dollars.
    But to do that we have to have adequate information for 
what tradeoffs we are actually making, which sometimes, because 
nobody wants to show us the actual numbers and what is 
happening, it is very difficult to make a real tradeoff. 
Clearly, it doesn't matter whether Republicans or Democrats are 
in control in any given State or at the Federal level right 
now, everybody is feeling the budget crunch, and all sorts of 
programs are under pressure.
    I happen to believe that the parks need more money because 
if you lose them, you don't get them back. And the cultural 
resources, much of the natural, and you have an obligation to 
pass that on. But we also have to be very wise stewards of the 
dollars.
    Another very, very difficult and explosive and emotional 
question is ranger interpretation and education. Clearly, we 
cannot provide the same levels as the public demand increases 
if you look at it in decade periods as opposed to incrementals 
of where a park may go up and down in a given period.
    But looking, Mr. Lighthizer and Mr. Booz, in particular, at 
the Civil War parks, I know, for example, this interpretation 
question, the number of--Ms. Oakes, can I ask you--you said 
basically three of four are getting the tours and one of four 
are being left out? Is that the way I understood--and that to 
some degree even that is a skewed figure because, for example, 
I know that school trips coming from my district into 
Washington, DC, if they even knew it was offered, would, alone, 
take up the entire year's ranger supplies. That I only learned 
about this when my son, when he was back in the fifth grade at 
Antietam, they said they were going to stop at Antietam, and 
could we set up any type of thing? And I learned then that 
there was a ranger program.
    But generally speaking, the park's ranger programs orient 
to the school districts around them unless somebody discovers 
it. It is not possible, quite frankly, if one congressional 
district in northeast Indiana could take up all the rangers who 
do education at Gettysburg or Antietam to meet all that school 
demand.
    So the question is, how do we creatively provide this, 
because we are investing all this taxpayer money in these 
parks, which are both cultural and scientific, that I believe 
there ought to be more on the Internet; I believe there ought 
to be more for teachers' aids; I believe there ought to be 
pacts that the teachers can do some of this. It becomes, then, 
a ground management as opposed to an education management.
    But how do you see the volunteer groups at the various 
parks doing this? Are there things that we can do to give 
incentives there? Do they get tax deductions for mileage, tax 
deduction for volunteer time? Should there be a standardized 
training program if it is a supplemental program? What can we 
do to make the education experience as accurate as possible 
without losing a qualitative and have the rangers--where we are 
never going to meet the public demand, but have them be an 
integral part of the training and key programming and making 
sure that there is historically accurate presentations rather 
than kind of very partisan interpretations, which I know from 
time to time get into even Civil War history. Not Republican/
Democrat, but certainly different people have strongly 
divergent views of the same battle.
    Mr. Lighthizer. My response is that I guess certainly you 
have hit the nail on the head as far as the Internet goes. Our 
organization is free to any teacher. We have a curriculum for 
different age groups or different grades and age groups that is 
on the Internet that is free to any teacher. And that certainly 
a teacher that was going to take his or her kids to Antietam as 
an example can go and get smart real quick if that is the only 
way they can do it.
    Mr. Souder. Is there any attempt by your organization to 
integrate with what the Park Service does? Or is it up to the 
teacher to read samples over here and samples over here and 
sees which one they like?
    Mr. Lighthizer. To my recollection we don't integrate real 
close with the--as far as teaching goes. I mean, the second 
part of our mission is education, and part of that is teaching 
teachers how to teach the war. And we have teachers 
conferences, etc., but Mr. Chairman, I can't think off the top 
of my head where we work specifically with the national parks.
    Mr. Souder. Mr. Booz.
    Mr. Booz. In one of my previous lives I was a high school 
principal, so that question is very meaningful to me. I would 
encourage my teachers to apply for the program. On the first 
day that we knew it was available, they sent in the 
applications, and we were in Central Maryland, half an hour 
from here. We never got in because there was such a demand. So 
I don't know that it matters whether you are from Pennsylvania, 
Maryland, Illinois, Indiana, you know, it is just such a 
demand.
    The conference that Jim referred to for teachers, one of my 
teachers went there, regarded it as one of the most outstanding 
conferences and educational experiences he had ever had. And he 
was a 30-year veteran with plenty of accolades.
    I believe that Gettysburg is real fortunate in that we have 
the licensed battlefield guides who do a superb job of 
enlightening people. But we could also expand that. The 
volunteer programs like the Friends would be thrilled to be 
involved.
    I doubt that the Park Service will ever be able to provide 
enough rangers or enough guides for the park when the real 
heavy tourist season comes in. I believe it would be extremely 
helpful to create a plan where a volunteer organization such as 
ours could help out. We have hundreds of members who would love 
to do that. However, the training would have to be, you know, a 
good training where people needed to go through it so that we 
don't get the extremists that you are talking about. And the 
demand is there.
    Mr. Souder. As we kind of look at it nationally, this is--
and you kind of take the subparts out--how we are going to do 
Visitor Centers, how we are going to do land acquisition? 
Education and information is a huge component of this. And it 
has been very interesting because this battlefield is arguably 
the most studied and written about of anything that we have in 
the National Park Service. And if it can't work here, how is it 
going to work elsewhere?
    But I have run into just--in wandering around through the 
Park Service, this is a huge question. In New Orleans they are 
having this argument right now because they have had these 
populous tours that go through, and if you take those, you 
would think that it is basically brothels and ghosts. And the 
Park Service would like to have it be somewhere in the 
buildings and some other things including brothels and ghosts. 
And how do you balance that?
    In the Klondike Gold Rush there is a similar type of thing 
that wants to happen there because there, the cruise ships come 
in, and they want to sell their tours on the cruise ship. And 
to get the attendance they jazz it up. And the history becomes 
less precise as they go through because they are trying to sell 
more tours. And so the question comes, as we privatize in 
trying to leverage this, what are we going to lose in the 
quality of the history, and at the same time realize that it is 
something that is inevitably going to happen to a degree?
    Is there some kind of a way, if the Park Service says no, 
only our guides are going to provide the tours, this isn't 
sustainable. Even if we increase the budget, it isn't going to 
be sustainable. How can we get some kind of a marrying here, 
and your system here has to be a model because if it can't work 
here, I don't know how we are going to work it in New Orleans 
and the Klondike.
    Mr. Booz. The Friends have our headquarters in the Rupp 
House, and we have the Rupp House History Center. When that was 
created--and the History Center has been opened--this will be 
its third year I believe--when that was created we worked very 
closely with the park and with the plans, you know, that the 
park had to make sure that our interpretations were 
appropriate. And even in the last 3 weeks we have made some 
revisions because we have come up with some more information 
that would help the interpretation. So, you know, we are trying 
to do what I think you are asking.
    Mr. Souder. Yes, not to mention I remember at Saratoga 
being told that there was a Pentzler's operation, and now we 
are finding out that it was a bluff. So history is not 
necessarily locked in place either. Ms. Oakes, you covered the 
broader region in addition to the Civil War parks, and I wanted 
to go through--you have some of this in written testimony, but 
I wanted to draw it out a little bit more. In Gettysburg you 
said 63 cents for every dollar. Could you explain what the gap 
is and elaborate on that a little bit?
    Ms. Oakes. Right, and in fact we could provide a copy of 
the Gettysburg business plan that was completed in partnership 
with MPCA. That gives all the detail you would want. But we 
found that in each of the five basic areas of park services 
there were shortfalls. So visitor services, resource 
protection, the law enforcement, maintenance, there were 
shortfalls in each one. The details aren't in my head, but I am 
happy to provide that for the record.
    Mr. Souder. I would. And for each of the places you refer 
to is if you could----
    Ms. Oakes. Yes.
    Mr. Souder [continuing]. Give us a more detailed----
    Ms. Oakes. Absolutely.
    Mr. Souder [continuing]. Because when we publish, the 
record of course will have a--each one will be a little book on 
each region, in effect.
    Ms. Oakes. Yes.
    Mr. Souder. And then we hope to combine them into a final 
report that is more abbreviated, and then what my former boss--
when I worked for Dan Coats--referred to as the 1-5-20 rule. 
The memo reads 1 page; if he gets a little interested he reads 
5 pages, and then if he gets real interested he reads 20. Well, 
this would be a more elaborate version of that. But he wanted 
to know that we had the 20 each time we did a 1 even if he 
never looked at the 20, because we need to be able to sustain 
the details of the arguments that are made in the shorter part.
    Ms. Oakes. Yes.
    Mr. Souder. But if I understood your statement that, in 
fact, it is made up a number of series of areas, and then you 
look at that and say the shortfalls are each of those areas. 
When you define a shortfall, is that a combination as a 
principle? Now, not Gettysburg in particular. As a principle, 
how did you determine what the dollar level was? What the needs 
are stated in the business plans as goals? Is there a rating of 
the severity of--in other words, is it based on they used to 
have this many rangers; now they have this many rangers? And to 
keep it funded at that level, that added to the dollar. Is it 
they had backlog that was deteriorating, needed to be done? 
Does it also include, for example, a row that they would like 
to have or the land acquisition of inholding that they would 
like to have as well?
    Ms. Oakes. Right, for Gettysburg, the 63 cents that they 
have for every dollar they need is based simply on the annual 
operations, although the plan does identify the major 
maintenance backlog projects and does not--I don't believe, but 
we can check that--identify the land acquisition needs in 
dollar amounts, probably in acreage amounts. And I think I 
mentioned it is about a 20-percent private ownership.
    But that annual operations budget is based on really taking 
the budget apart and putting it back together in a process that 
was vetted by PriceWaterhouseCoopers that we worked--when the 
MPCA was directly involved in producing these plans, we would 
hire graduate students from the top business school in the 
country--Wharton, Harvard, Stanford, etc.--and they would live 
in the park for 2 or 3 months working on a daily and sometimes 
hourly basis with the park financial managers to take that 
budget apart and look at given Park Service standards, given 
visitorship, given the assets in the park, what are the needs. 
And the students, their basic question was why. I mean, their 
job was to challenge and analyze everything, and that is what 
they did.
    Mr. Souder. What would be helpful, and I know you have done 
a thorough examination in that basis, and that should be a 
core, because one of the things we are looking at, how do we 
keep up the basic operating----
    Ms. Oakes. Yes.
    Mr. Souder [continuing]. But then, as we have discussed, as 
we have looked at the funding question, there is--to the degree 
that doesn't take into consideration backlog, because this 
isn't going to be possible to do for every park, but if you can 
pick a couple--this is kind of as we move through the hearing 
process that are not kind of outrageous examples, throw out the 
biggest here and the lowest here and kind of give what is a 
pattern. What are the opportunities that we may be missing as 
well, and if there are certain backlog things in that. Because 
it is one thing to argue to Congress, look, the basic operating 
is not being covered.
    And there are several possible ways to address that. One of 
which I have been advocating with the Appropriations Committee 
is Homeland Security ought to be treated as a separate line 
item. I saw the--out of Homeland Security not in the parks 
budget. That others are similarly making that argument.
    I saw in this morning's newspaper that the airports are 
making this argument--that we ought to be not charging the 
airports for homeland security. Other agencies are having the 
same challenge, but in the Park Service, particular with icons, 
disproportionate--their budget, I believe, they are being hit, 
and they don't have the means with which to pass through--like 
on an airline ticket--for users.
    To the degree that there are, I am one who believes the 
demonstration fee, building fees, and the people who are using 
the park should pay a portion of it just like I believe people 
who use the airports should pay a portion of it, but that is 
not always easy to collect.
    At Apostle Island, for example, 80 percent enter the 
islands there don't go through a Visitor Center anywhere, so 
how in the world would Apostle Island be funded? Different 
parks have an easier time of that. But the other tradeoff is 
while we are looking at the operating, we don't want to get 
everybody so obsessed just on the operating that we miss huge 
opportunity costs because we say look, we are so far behind on 
maintenance, we are so far behind on operating, we can't add 
this piece of land that then gets paved over, and we can never 
do it.
    There is a very interesting balance here that we are trying 
to work through when we look at the funding question because, 
to some degree, our philosophy thus far has been grab the land, 
we will worry about staffing it later. Now we are finding out 
we don't have the dollars with which to staff it because we 
have grabbed so much.
    And then we have had this kind of--other than boundary 
adjustments, very minimal adding at critical places, 
particularly in areas where there are inholdings with right to 
sell. For example, there was one little piece--my argument was 
at Grand Teton--that because everything else was gradually 
taken over in the area, we increased the value of that 
inholding beyond of which it used to be valued, and now it is 
millions of dollars. But they can put up apartments right in 
the middle of--I think it is by Jenny Lake.
    And, you know, while we have to get that one--or the 
example at Manassas where it is $220,000 an acre, that because 
he got a zoning ability by that, it gets outlandish if you 
don't act. And then your kind of goose is cooked so to speak 
when you get to the end and how to do this tradeoff.
    But clearly, we have a lack of understanding in Congress 
about the basic maintenance. And that is one of the things that 
we are trying to illustrate here. You mentioned a number of 
parks in the region. Do you see these as being--you picked 
these because they were relatively typical. Have you looked at 
the budget pressure of some of the--what colloquially call 
``postage stamp'' parks?
    Ms. Oakes. The little bitty ones. Well, Fort Necessity 
would be one that is an example--fairly small part in 
southwestern Pennsylvania. And their actual budget remained the 
same from fiscal year 1994 to fiscal year 2004. And we all know 
the cost of living didn't stay the same in those 10 years.
    And in fact according to the Consumer Price Index a 1994 
dollar bought you 79 cents worth in 2004. And so the purchasing 
power of that park eroded more than $200,000 during that time 
period, so that meant, you know, less ability to do that day-
to-day maintenance, and do interpretation.
    And that is a park where--it is very interesting because 
despite all that, they have done some really fabulous things. 
They have a full-time curator who has actually cataloged all of 
their artifacts. And so they know what they have; they can make 
it available to the public. There are such benefits from that 
kind of being on top of your collection. And they have done 
that, this little park that is losing purchasing power every 
year.
    They also have a really extraordinary public-private 
partnership that, again, the Commonwealth as well as the Park 
Service and private citizens stepped up to build an $11\1/2\-
million Visitor Center that should open later this year. But 
surprise, surprise, the operating funding is a concern. And the 
building is several times larger than the existing Visitor 
Center, which was very small and is high tech, state-of-the-
art. Lots of electricity will go through that building even 
though it is built to be efficient. And they need a bump up in 
funds in order to staff this state-of-the-art jewel that will 
be open to the public in a few months.
    Mr. Souder. Would your position at MPCA, at least within 
your region, be that if we have these difficult tradeoffs to 
make--because obviously, even if we increased from 3 to, say, 6 
percent, which I am not holding my breath we are going to do-- 
that would move us, what, from 63 cents on the dollar to, say, 
66 cents on the dollar--are there certain units or pieces of 
parks that you would see us all turning over to States or 
trying to look at different management things? Because quite 
frankly, one of the problems with the Park Service from the 
very beginning has been that individual Congressmen make a 
decision that they want to put something in the Park Service.
    Sometimes--I know former director Rydenhower, who came up 
with this whole idea of heritage areas to keep us from adding 
new parks, and now watch the heritage areas start to take the 
money from the parks, even more loosely defined, but, for 
instance--which we do--my response was yes, well, that was two 
of the first four parks in the Park Service. That is not new.
    And in fact, Mackinac Island was one that is no longer a 
National Park. Do you think that is a justified look in the 
Park Service as we look at the budget to say look, is Grant's 
Tomb really something--not to pick on that one--that should be 
an integral part given the operating costs of the tradeoff of 
what that means for Gettysburg or other parks?
    Ms. Oakes. Well, that is quite a tough question. I think it 
is reasonable to ask a question like that. I am not sure what 
the answer would be. I think there are a lot of tradeoffs that 
aren't obvious at the beginning of answering that question that 
could have detrimental impacts from taking a unit out of the 
system. And so it is a reasonable question to ask, but I hope 
we would be very careful and thoughtful and analytical in how 
it would be answered.
    Mr. Souder. It is a very, very difficult question, but as 
we look at challenges such as we don't have very many Asian 
history things in our park system, as we look at Hispanic-type 
things. If we just get into frozen history--and by the way, I 
am not one who believes that--I don't want to overstate this 
point because as a conservative Republican and somebody who 
believes that individual leaders are a key part of history and 
we shouldn't just give up because the bulk of the early leaders 
were White males to use what I often hear--the fact is, is that 
individuals do have extraordinary decisions on a battlefield, 
and those decisions, for example, may determine which way the 
course of the country went, and I am not against that type of 
thing. But I do believe that we need to look at other types of 
categories that aren't covered in the system.
    And if we are never willing to step back and say, did we 
get too strong in one area? We get ourselves in an intolerable 
budget situation, even as somebody who is advocating huge 
increases in the Park Service. Governor.
    Mr. Thornburgh. I just wanted to add one thought, Mr. 
Chairman, that when it comes to either making up a shortfall or 
deciding upon the desirability of an expansion, either a 
physical expansion or service expansion, that the checklist for 
making those determinations always include the question of 
whether or not there is an opportunity to establish a public-
private partnership that relieves some of the budget pressure 
on the agency in question, in this case, generally the Park 
Service.
    I think there are a lot more opportunities out there that 
are being availed of at the present time. And if that kind of 
item was included on such a checklist, you have an opportunity, 
I think, to kind of draw out community resources to participate 
in these projects and maybe dampen some of the negative effect 
that comes from limited dollars in the public sector.
    Ms. Oakes. If I may, I think parks are looking more at 
opportunities for enhancing revenues; for example, Shenandoah 
is looking at having a license plate that at the Smokies, I 
believe it was, has generated several hundred thousand dollars. 
And that is real money for that park. So they are also looking 
at automated fee collection at some of the access points. Of 
course, you can walk in from neighboring property and other 
ways, but there are a number of roads that transect the park, 
and there are some places to have those fee collections that 
would increase revenue in addition to a number of strategies. 
And a lot of parks are looking for that.
    So, you know, the questions include how do we make the pot 
a little bigger? And obviously the Centennial Act would help 
with that. But also, with these partnerships--and the Museum 
Foundation here at Gettysburg is a great example--they are 
building the building and they are raising an endowment for 
that. And that is fundamentally important for future such 
partnerships.
    Mr. Lighthizer. That is particularly true with respect to 
land acquisition. As I said, my organization in 5 years has 
done over 15,000 acres. That is far, far more, my guess is, 
than the National Park Service has done as far as battlefield. 
And the vast majority of that land will never be owned by the 
National Park Service or controlled by it or administered by 
it. You know, that land will be in State parks, local parks, or 
we will own it, or other individuals.
    So certainly when it comes to land and as the Governor 
mentioned, facilities related to that, there is just almost an 
infinite variety of opportunities for the private sector. 
Because these things are popular. I mean, they haven't raised 
$69 million by accident and most of it in the private sector. 
It is because people care.
    And we haven't raised the tens of millions of dollars that 
we have from the private sector by accident. It is because 
people really care about this stuff.
    Mr. Souder. One of the things--I know this is my MBA 
temperament, it drives me crazy that coming from the business 
sector and into government and first coming in in social 
issues, it bothered me there too.
    And then looking at the parks it is the same way, that it 
almost appears from the budgeting standpoint forward, it is a 
cash-management decision that is looked at park level then 
geographically rather than thematically. And that visitors come 
at the parks in two ways: both geographically and thematically.
    If you are interested in the Civil War, you are going to go 
to Civil War sites--if you are interested in the Revolutionary 
War. And it would seem to me from a management standpoint of 
prioritization as well in budgeting that you would then look at 
it thematically and say if it is Lewis and Clark, we don't need 
to have every interpretive center in the United States tell the 
entire story of Lewis and Clark. You have a major, major center 
of Lewis and Clark; you have here how these different things go 
in. It drove me crazy going through the Lewis and Clark that I 
could go into multiple National Park Service Centers and not 
see, if you want additional information on the Lewis and Clark, 
go see Ft. Clatsop over here up in where they wintered in the 
Mandan area over here, go down to the arch for the launch--that 
there is not even a concept of integration well across the 
region. They may even be out of State, that not thinking like 
the consumer who is paying for it.
    But also then saying, what are our holes in the management 
system? What are we missing? How do we make the decision 
whether this collection is more important than this decision? 
Because if the decision is being made within each park and then 
within each region, it is not being made as part of a category.
    And in a budgeting standpoint, to me that would seem to be 
missing a key element. When you are looking at the 
battlefields, for example, in the Civil War, how do you balance 
off Pea Ridge and Glorieta Pass with additional space at 
Gettysburg? How significant was it? If that is not occurring, 
all you are doing is doing a regional cash management decision, 
which Congressmen can get something written in.
    Mr. Lighthizer. You are deciding it in a vacuum, which is 
not the way to decide it. In the case of the program I am 
talking about, Land and Water Conservation Program that you all 
fund, there are performance measures that the Office of 
Management and Budget applies to that program. How efficient is 
it? How much needs to be saved? How do you define what needs to 
be saved? What kind of bang are you getting for your dollar? 
Where is the leverage, etc. So performance standards, in 
addition to looking at it from the big picture, like you say 
somatic, is also important.
    Mr. Souder. Are the Civil Wars looked at thematically in 
the system? Do you see that any?
    Mr. Lighthizer. I don't think so.
    Mr. Souder. Ms. Oakes, do you see that in other categories, 
not just Civil War, but for example authors, former presidents, 
Asian, Hispanic? There has been some attempt on Hispanic 
because it is a rising tourism category. That categorically to 
look at this--I know more or less the Lewis and Clark Caucus 
forced it on the Lewis and Clark.
    Ms. Oakes. Right, well, one of the park brochures that I 
have bought a lot of and given to my friends with kids my son's 
age is a Park Service brochure on the Civil War, ``Civil War at 
a Glance'' and they pack a lot in to one brochure, but it does 
give you a sense, both of how the war played out 
geographically, and also the actual conduct of the war. So that 
is a small thing.
    There has been a lot of controversy, I think, over the 
recent years about interpretation of Civil War battlefields. 
Some folks wanted just to hear military tactics because if you 
don't hear them on a battlefield, where else are you going to 
hear them? The superintendent of Gettysburg, in fact, has been 
one of the leaders in advocating to his peers that the causes 
and consequences of the war be interpreted not only at 
Gettysburg but other sites.
    So that is something else that is going on. Another 
initiative in this region that you may know about is the 
Chesapeake Bay Gateways Network, which is a truly fabulous 
effort that we are hoping that at some point there will be one 
or more new units of the National Park System in the Chesapeake 
Bay region.
    But for now, what that does is exactly what you are talking 
about, is linking interpretation and themes. You can go on that 
site, and if you are interested in Civil War history, among the 
units that have signed up for the Gateway System, you can find 
that out. If you are interested in African American history, 
you can find that out. So that is something happening right 
here in part because of the leadership of the just-retired 
regional director of the Park Service in the Northeast.
    Mr. Souder. Well, I thank you all for your input. Is there 
anything anybody wants to add? We may do some individual 
followup questions. One of the things we are doing is looking 
at the--but not precisely, we are not the Appropriations 
Committee at the funding. We are looking at the management 
structure, how it is set up, is there adequate funding, can we 
preserve it.
    But also internally, obviously you get into all sorts of 
decisions on the role of public-private partnerships, the role 
of demo fees, the role of outside groups and interpretation, 
all sorts of supplemental things that go into the pieces of 
that budget and how you meet the difficult dollar questions.
    It is important in these hearings that we look not only at 
the shortfall, which is one of the primary things to illustrate 
the fact of what I have been hearing at the grassroots, that 
there are adequate dollars to even keep the parks at the 
current level of interpretation and environmental sensitivity 
and the road upkeep no matter whether it is visitation or 
scientific and environmental.
    At the same time it is to look at, in addition to Federal 
funds, can we do public-private partnerships? The first time I 
went to Yellowstone as a furniture retailer my background was--
do you have licenses for this furniture to go out and get some 
additional revenue?
    And this has been one of my pet causes, and if any of you 
have any suggestion, we are stumbling over how to do it, but 
there is a lot of receptivity as we look at the demonstration 
fees and making more fees on whether it is a vehicle, whether 
it is a tour guide, whether it is all this type of stuff.
    And I believe, basically, that our national parks pass 
needs to go up in dollars. But how to give a basic cost 
breakthrough for the fees for low-income families, because that 
is the only argument. Will it make it the upper/middle income 
and rich people's playground?
    And we have talked about whether if you have submitted in 
your taxes whether it could just be a straight credit off, but 
even whether the low-income target groups would save the 
receipt until they get to the year to put that in, because that 
would be the simplest way to do it: save any receipt you have 
at a Park Service, submit it. Rather than a deduction it would 
come straight off as a credit. In other words, you get the full 
dollars back if you are below a certain income.
    What would be another way to do this? Because to me that is 
the only real fundamental question underneath the fee 
structure. The fees are so minor compared to the cost of going 
to the movies, compared to going to amusement parks. That is 
not the fundamental question. The question is, access for 
people where it may make a difference, at the margin.
    And we have been toying around as the demonstration fee 
bill moves, is there a way--and there is basically agreement in 
concept to try to address this. An agreement in concept is 
different. I mean, is there something we give somebody at the 
gate, but then does that have a stigma to it?
    It is not easily resolved, but it is one that as these 
costs go up, if it is $20 to get into Yosemite, it is a whole 
different ballgame than the old days.
    Ms. Oakes. And if I can just add something to that. 
Shenandoah has a great record on collecting fee demo money and 
using it. They just invested about $300,000 in restoring 
President Herbert Hoover's home that he built at Rapidan Camp 
at the headwaters of the Rapidan River. And what that fee money 
doesn't provide, though, is the funding for the annual 
operations, for routine maintenance, and for the 
interpretation. They offer----
    Mr. Souder. Right.
    Ms. Oakes [continuing]. Ten ranger-led van tours from the 
Visitor Center last summer. They are not sure they are going to 
be able to provide that same level of interpretation this year. 
They have a series of volunteers that live in one of the houses 
there at Rapidan Camp who then can unlock the buildings and let 
the person who hikes in to actually see, but they are not 
providing the interpretive stories that rangers can provide 
that really make the place come alive.
    Mr. Souder. If you have any suggestions such as that one in 
your region on the fee demo, the whole idea is to improve 
visitor services.
    Ms. Oakes. Yes.
    Mr. Souder. The second thing is, can it be used on 
maintenance backlog? And historically, there has been a 
prohibition on being used for maintenance. If we changed that, 
and a certain percentage could go to maintaining, what would 
that do for operations to the backlog? And would the backlog 
just get bigger proportionally? What impact would that have?
    An argument would be, as a park goes, and particularly 
those who get bigger demo fees get their list presumably worked 
down from where it was.
    On the other hand, of course, I think it was where I said 
had the most controversy because they used the demo fee, which 
they weren't supposed to do, to subsidize the transit system 
early on and then get called on it. But to some degree is that 
one place we got for certain--rather than do it broad for 
maintaining operations, could there be certain limited 
operations that it could be used for that we could experiment 
with and see how that works? I would be interested in any ideas 
on that because----
    Ms. Oakes. OK.
    Mr. Souder [continuing]. It is a huge category. Well, thank 
you all for your testimony and for coming this morning. And 
with that, this subcommittee stands adjourned.
    [Whereupon, at 12:25 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
